<html>
<title> - OVERSIGHT HEARING ON A ROADMAP FOR INCREASING OUR WATER AND HYDROPOWER SUPPLIES: THE NEED FOR NEW AND EXPANDED MULTI-PURPOSE SURFACE STORAGE FACILITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 A ROADMAP FOR INCREASING OUR WATER AND HYDROPOWER SUPPLIES: THE NEED 
     FOR NEW AND EXPANDED MULTI-PURPOSE SURFACE STORAGE FACILITIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, October 29, 2013

                               __________

                           Serial No. 113-51

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                     ______

                       U.S. GOVERNMENT PRINTING OFFICE 

85-371 PDF                    WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Steve Daines, MT                     Matt Cartwright, PA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                      TOM McCLINTOCK, CA, Chairman
           GRACE F. NAPOLITANO, CA, Ranking Democratic Member

Cynthia M. Lummis, WY                Jim Costa, CA
Scott R. Tipton, CO                  Jared Huffman, CA
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Markwayne Mullin, OK                 Alan S. Lowenthal, CA
Doug LaMalfa, CA                     Peter A. DeFazio, OR, ex officio
Vacancy
Doc Hastings, WA, ex officio

                                ------                                
                                CONTENTS

                                --------                              
                                                                   Page

Hearing held on Tuesday, October 29, 2013........................     1

Statement of Members:
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................    12
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................     9
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     7
        Prepared statement of....................................     8
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................    15
    Mcclintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     6
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................    11
    .............................................................

Statement of Witnesses:
    Barcellos, Tom, Dairy Farmer, Porterville, California, on 
      Behalf of Barcellos Farms, Lower Tule River Irrigation 
      District and the Family Farm Alliance......................    34
        Prepared statement of....................................    36
    Sandison, Derek, Director, Office of Columbia River, 
      Washington State Department of Ecology, Yakima, Washington.    23
        Prepared statement of....................................    24
    Shibatani, Robert, CEO and Principal Hydrologist, The 
      Shibatani Group, Inc., Sacramento, California..............    17
        Prepared statement of....................................    19
    Valadao, Hon. David G., a Representative in Congress from the 
      State of California........................................    14
    Ziemer, Laura S., Senior Counsel and Water Policy Advisor, 
      Trout Unlimited, Bozeman, Montana..........................    27
        Prepared statement of....................................    29

Additional Material Submitted for the Record:
    Hydrogeologist Urges Underground Storage of Water, from the 
      Medesto Bee, October 25, 2013, by Garth Stapley............     5
                                     


 
OVERSIGHT HEARING ON A ROADMAP FOR INCREASING OUR WATER AND HYDROPOWER 
 SUPPLIES: THE NEED FOR NEW AND EXPANDED MULTI-PURPOSE SURFACE STORAGE 
                               FACILITIES

                              ----------                              


                       Tuesday, October 29, 2013

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:24 p.m., in 
room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the subcommittee] presiding.
    Present: Representatives McClintock, Lummis, Tipton, 
LaMalfa, Hastings, Napolitano, Costa, Huffman, Cardenas, Ruiz, 
Lowenthal and DeFazio.
    Also Present: Representative Valadao.
    Mr. McClintock. The committee will come to order.
    I would like to apologize to our witnesses for the late 
beginning, but I do not think we will be interrupted by votes 
before 4:30 today. So that is the consolation on the late 
start.
    Before we begin with statements from Members and witnesses, 
I would ask unanimous consent that Mr. Valadao be allowed to 
sit with the subcommittee and participate in today's hearing.
    Without objection.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. The purpose of today's hearing is to 
identify the current impediments to increasing water storage 
and hydropower capacity, and to look at new concepts on the 
construction of smaller high elevation dams.
    During the first two-thirds of the 20th century, local, 
State and Federal Governments devoted themselves to the 
development of the vast untapped water resources of the Western 
United States. Yet in the 1970s, this positive and forward 
looking policy was abandoned in favor of increasingly 
restrictive environmental demands.
    We have now lived under these policies for more than four 
decades, and as a result, we face increasingly severe water and 
electricity shortages, spiraling water and electricity prices, 
devastated farms, and a chronically declining economy. It seems 
we have lost sight of several self-evident water truths.
    First, more water is better than less water. That is about 
as self-evident as it gets. Yet we often hear that instead of 
producing new storage, we should resign ourselves to chronic 
water shortages and manage those shortages through increasingly 
severe conservation measures.
    But conservation does not add more water. It merely manages 
a water shortage.
    Second, cheaper water is better than more expensive water. 
If we agree on this, then it naturally follows that before we 
employ more expensive sources of water, like desalinization and 
recycling, we should first be sure we have exhausted the less 
expensive alternatives like water storage.
    Third, water is unevenly distributed over both time and 
distance. If we want to have plenty of water in dry periods, we 
have to store it in wet ones, and if we want to have plenty of 
water in dry regions, we have to move it from wet ones. Mother 
Nature produces about 45,000 gallons of fresh water each day 
for every man, woman and child on this planet. The problem is 
not supply. It is distribution. That is why we build dams and 
aqueducts.
    Fourth, we do not need to build dams and aqueducts if our 
goal is simply to let the water run into the ocean. Water tends 
to run downhill very well on its own. It does not need our help 
to do so. We build dams and aqueducts to put surplus water to 
beneficial human use before it runs into the ocean.
    Now, if we agree on these self-evident water truths, then 
why are we not approaching our policies in concert with those 
truths?
    In the 20th century, the Bureau of Reclamation built more 
than 600 dams and reservoirs. Yet today two-thirds of them are 
more than 50 years old, and with the exception of the Animas-La 
Plata Project in southwestern Colorado, Reclamation has not 
built a large multi-purpose dam in an entire generation.
    We will hear that California's water system was built for 
22 million people, but it is now struggling to serve 38 
million. The last major water project in California over a 
million acre-feet was the new Melones Dam in 1979. Yet with 
water supplies strained to the breaking point, the left sees no 
problem committing billions of gallons of precious water for 
the care and amusement of the Delta smelt.
    The status quo is simply not working, and the purpose of 
today's hearing is to chart a path that leads us to a new era 
of abundance.
    We are fortunate to have Mr. Robert Shibatani before us 
today. His ground breaking high elevation storage concept 
avoids many of the obstacles to traditional on-stream 
downstream storage projects.
    There is no shortage of water and no shortage of economical 
storage sites. Financing has never been a problem for projects 
that produce abundant water. Experience shows us that such 
projects pay for themselves many times over. What we suffer is 
a super abundance of bureaucracy and a catastrophic shortage of 
vision and political will. That is what has to change.
    I am looking forward to hearing from our witnesses today as 
we chart a course away from past policies of paralysis, 
shortage, rationing and decline toward a new era of action, 
abundance and prosperity.
    [The prepared statement of Mr. McClintock follows:]
     Prepared Statement of The Honorable Tom McClintock, Chairman, 
                    Subcommittee on Water and Power
    The purpose of today's hearing is to identify the current 
impediments to increasing water storage and hydropower capacity and to 
look at new concepts on the construction of smaller high-elevation 
dams.
    During the first two thirds of the 20th century, local, State and 
Federal Governments devoted themselves to the development of the vast 
untapped water resources of the Western United States.
    Yet, in the 1970s, this positive and forward looking policy was 
abandoned in favor of increasingly restrictive environmental demands.
    We have now lived under these policies for more than four decades, 
and as a result face increasingly severe water and electricity 
shortages, spiraling water and electricity prices, devastated farms and 
a chronically declining economy.
    It seems we have lost sight of five self-evident water truths:
    First, More water is better than less water. That's about as self-
evident as it gets, yet we often hear that instead of producing new 
storage, we should resign ourselves to chronic water shortages and 
manage those shortages through increasingly severe conservation 
measures. But conservation doesn't add more water or give you the 
multi-purpose benefits that dams give communities
    Second, Cheaper water is better than more expensive water. If we 
agree on this, then it naturally follows that before we employ more 
expensive sources of water like desalination and recycling, we should 
first be sure we've exhausted the less expensive long-term and multi-
purpose alternatives like surface water storage projects.
    Third, Water is unevenly distributed over both time and distance. 
If we want to have plenty of water in dry periods we have to store it 
in wet ones, and if we want to have plenty of water in dry regions we 
have to move it from wet ones. Mother Nature produced 45,000 gallons of 
fresh water each day for every man, woman and child on the planet. Our 
problem is not supply--it is distribution. That is why we build dams 
and aqueducts.
    Fourth, we don't need to build dams and aqueducts if our goal is to 
let our water run into the ocean. Water tends to run downhill very well 
on its own and doesn't need our help to do so. We build dams and 
aqueducts to put surplus water to beneficial human use before it runs 
into the ocean.
    Fifth, water is valuable, which allows the market to assign a price 
to it that can account for its scarcity, availability, storage, 
transportation, demand and substitution costs, and which in turn tells 
us which projects are viable and which are wasteful.
    If we agree on these five self-evident water truths, then why 
aren't we proceeding on policies in concert with them?
    In the 20th century, the Bureau of Reclamation built more than 600 
dams and reservoirs. Yet today, two-thirds of them are more than 50 
years old and with the exception of the Animas-La Plata Project in 
southwestern Colorado, Reclamation has not built a large multi-purpose 
dam in an entire generation. We will hear that California's water 
system was built for 22 million people, but is now struggling to serve 
38 million people. The last major Federal, multi-purpose water project 
in California was the New Melones Dam in 1979. Yet with water supplies 
strained to the breaking point, the left sees no problem committing 
billions of gallons of precious water for the care and amusement of the 
Delta Smelt.
    The status quo is simply not working and the purpose of today's 
hearing is to chart a path that leads us to a new era of abundance.
    We are fortunate to have Mr. Robert Shibatani before us today. His 
ground-breaking high-elevation storage concept avoids many of the 
obstacles to traditional on-stream downstream storage projects.
    There is no shortage of water and no shortage of economical storage 
sites. Financing has never been a problem for projects that produce 
abundant water and power--experience shows us that such projects pay 
for themselves many times over. What we suffer is a superabundance of 
bureaucracy and a catastrophic shortage of vision and political will. 
That is what has to change.
    I am looking forward to hearing from our witnesses today as we 
chart a course away from past policies of paralysis, shortage, 
rationing and decline toward a new era of action, abundance and 
prosperity.
                                 ______
                                 
    Mr. McClintock. And with what, I will yield to the ranking 
member, my colleague from California, Mrs. Napolitano, for 5 
minutes.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman, and thank you to 
the witnesses for being with us today.
    I have no objection to the hearing and its emphasis, but 
the concern, however, remains that this hearing only looks at 
one side of the coin. It only looks at new surface storage. It 
does not look at groundwater storage, efficiencies, water 
recycling, desalination, and of course, education.
    This is our second hearing specifically on this issue since 
last February. We have not looked at any of the other options. 
If we are looking for solutions to our water problems and for 
certainty for our communities, then we must all have full 
consideration of all other options, including storage and other 
alternatives, such as desalinization and recycling. We cannot 
just prioritize the option that is the most expensive, least 
efficient, takes longer to create, and it creates the most 
environmental conflict.
    There is no argument about the impact reclamation projects 
have had on the West. Nearly 40 million people now depend on 
water from reclamation projects, but the enormous fiscal and 
environmental cost of these projects as well as the development 
of prime locations for surface storage projects has led us to 
look at different alternatives.
    Our Majority will argue that environmental regulations have 
hindered construction of new facilities in the West. The 
biggest issue to dam construction is, of course, cost. How can 
Congress guarantee these communities billions of Federal 
appropriated dollars that are necessary for construction?
    It is also important to know that $22 billion reclamation 
is already spent on major water projects. Only 25 percent, or 
5.2 billion, has been repaid to the Federal Government. Any 
authorization of new storage projects will have to compete for 
funding in Reclamation's limited budget, which is probably a 
billion-some, a billion and a half. I cannot remember the exact 
amount, and after the Federal debt associated with the water 
projects.
    The biggest impediment to dam construction is limited 
Federal funding. New storage when appropriate is not 
impossible, and California has added 5.6 million acre-feet in 
new groundwater and surface water storage in the last 20 years. 
This includes new water, surface water storage, like Contra 
Costa's Water District Los Vaqueros Project, which had 60,000 
acre-feet of construction completed last summer on time, on 
budget, and no litigation.
    In my own district, the Metropolitan Water District 
completed Diamond Valley Reservoir in 2003, adding 800,000 
acre-feet of capacity to our local water supply system, and 
they did so with no Federal funding and in compliance with all 
environmental regulations.
    However, water managers have already realized they cannot 
wait to compete for limited Federal dollars or the 20 to 30 
years or so it will take to construct a facility. They need to 
solve problems now. Water managers are looking for projects 
that involve limited Federal involvement and can produce water, 
wet water, on a faster scale.
    This can also be seen in the 53 water recycling projects 
Congress has authorized since 1992. Health facilities, 
Reclamation has already helped health facilities facilitate the 
conservation of 616,000 acre-feet of water from 2010 to 2012 
with title 16 Water Smart grants and other conservation 
programs.
    Reclamation's current goal is to conserve accumulation 
totals since 2009 of 790,000 acre-feet of water by the end of 
2014. The threat to our water supply is real. We have many 
challenges like climate change, decreased snow pack, increased 
demand and development of alternative water, intensive fuels 
like oil shale. Not all of the water needs in the West can or 
should be met by new dams or bigger dams. New storage is not 
always the right answer or the only answer, and the same can be 
said of water recycling or desalinization.
    What works for one community may not work for others, and 
we must select the most effective and affordable solution. To 
know the right solution for the community is to have all 
options on the table, and looking at surface storage does not 
provide our water managers with the baseline data they need to 
conserve for all our communities.
    And, Mr. Chairman, I would like to introduce for the record 
the ``Hydrologist Urges Underground Water Storage'' in the 
Modesto Bees, October 25.
    Mr. McClintock. Without objection.
    [The Modesto Bees article ``Hydrologist Urges Underground 
Water Storage'' follows:]

                [From the Medesto Bee, October 25, 2013]

           Hydrogeologist Urges Underground Storage of Water
                           (By Garth Stapley)
    ``Groundwater, Wealth, Contentment, Health'' read words 
superimposed onto a picture of Modesto's beloved arch, in a slide 
splashed on a huge lecture-hall screen. It was the last in Friday's 
presentation by an expert suggesting how Modesto and Turlock might 
solve emerging problems of too much pumping.
    ``Modesto, consider the possibilities,'' hydrogeologist Chris 
Petersen said as he clicked to the clever slide, drawing laughter from 
the standing-room-only crowd of about 300 crammed into a Modesto Junior 
College auditorium.
    Petersen, who was raised in Ripon and attended MJC for 3 years 
before going on to graduate degrees and gaining a reputation for water 
expertise, said this area could learn much from others that have 
gathered stakeholders, approached State government for grant money and 
formed cooperative water districts. He focused on those that inject and 
store water below the Earth's surface, a fairly untried strategy in 
these parts.
    ``I believe we here in Modesto are pretty darned smart and can 
figure this out and can be an example to the rest of the world,'' 
Petersen said.
    The cost of underground storage isn't as bad as people might think, 
he said: as little as $110 per year for an acre-foot of water, or about 
what two small families use in a year. That's compared with as much as 
$1,000 per acre-foot for above-ground reservoirs, or $2,000 for 
desalinization--taking salt out of sea water, he said. ``It's not that 
bad,'' Petersen concluded. ``This is the way to go.''
    The cost of doing nothing is worse: Wells continue to go dry--as 
many already have in the Denair area--water quality degrades, farmers 
quit growing and lawsuits mount.
    ``You're going to be fighting your neighbor and making the lawyers 
rich. Who wants to do that?'' Petersen said. ``Either come together and 
work together and solve it yourselves--go to the State and ask for 
money; they'll willingly give it to you--or you do nothing and the 
State will step in and take control.''
    He said he was ``stunned'' that so many would give up Friday night 
social activities to hear him speak about a subject that many consider 
dry. In his 26 years as a water expert, he never had appeared before a 
crowd so large, he said.
    About half of those in Friday's audience were students, judging by 
a show of hands, and maybe a third were property owners concerned for 
their wells. They could be jeopardized by neighbors' pumps, which can 
suck from aquifers laterally without anyone seeing it from the surface.
    Growers have sunk gigantic wells to nourish millions of new almond 
trees on previously marginal rangeland lining the east side of the 
Valley. That area does not seem able to replenish its groundwater 
basins, compared with that under the Modesto area, which relieved 
aquifer stress after the city quit pumping so much when its canal water 
treatment plant began operating in the mid-1990s.
    Other regions are much worse off than this, Petersen said, pointing 
to San Joaquin County, the region from Merced to Bakersfield, and 
India.
    In a question-and-answer period after Petersen's slide show, 
Oakdale Irrigation District board member Frank Clark challenged his 
principal suggestion for recharging aquifers, asking why anyone would 
want to give wealthy nut investors even more to pump. ``It's just 
corporate greed,'' Clark said. "They're going to keep pumping more and 
more, and you can't put water in the ground fast enough to compensate 
for them pulling it out."
                                 ______
                                 
    Mrs. Napolitano. And I will be submitting other information 
for the record in regard to the storage, the Bureau studies, 
the 17 programs they have, where they are at, and the funding 
they have, who is online, who is not online.
    Mr. McClintock. Without objection.
    Mrs. Napolitano. Thank you. With that I yield back.
    [The prepared statement of Mrs. Napolitano follows:]
    Prepared Statement of the Honorable Grace F. Napolitano, Ranking 
                Member, Subcommittee on Water and Power
    Thank you Mr. Chairman and thank you for the witnesses for being 
here today.
    I have no objection to this hearing and its emphasis. My concern, 
however, is that this hearing only looks at one side of the coin-it 
only looks at new surface storage. It does not look at groundwater 
storage, efficiencies, water recycling or desalination. This is our 
second hearing specifically on this issue since last February, and we 
still have not looked at all of our other options.
    If we are looking for solutions to our water problems and for 
certainty for our communities, then we must have a full consideration 
of all other options--including storage or other alternatives like 
water recycling. We cannot just prioritize the option that is the most 
expensive, least efficient, and creates the most environmental 
conflict.
    There is no argument about the impact Reclamation projects have had 
on the West. Nearly 40 million people now depend on water from 
Reclamation projects. But the enormous fiscal and environmental cost of 
these projects, as well as the development of prime locations for 
surface storage projects, has led us to look at different alternatives.
    The majority will argue that environmental regulations have 
hindered construction of new facilities in the West. The biggest issue 
to dam construction is cost. How can Congress guarantee these 
communities the billions of Federal appropriated dollars that is 
necessary for construction?
    It is also important to note that of the $22 billion Reclamation 
has already spent on major water projects--only 25 percent or $5.2 
billion has been repaid to the Federal Government.
    Any authorization of new storage projects will have to compete for 
funding in Reclamation's limited budget AND add to the Federal debt 
associated with water projects.
 the biggest impediment to dam construction is limited federal funding
    New storage when appropriate is not impossible, and California has 
added 5.6 million acre-feet in new groundwater and surface water 
storage in the last 20 years.
    This includes new surface water storage, like Contra Costa Water 
District's Los Vaqueros Project. The Los Vaqueros' 60,000 acre-feet 
construction was completed last summer, on time, on budget and no 
litigation. In my district, the Metropolitan Water District completed 
the Diamond Valley Reservoir in 2003, adding 800,000 acre-feet of 
capacity to our local water supply system. They did so with NO Federal 
funding and in compliance with all environmental regulations.
    However, water managers have already realized that they cannot wait 
to compete for the limited Federal dollars or the 10, 20, or 30 years 
it will take to construct a facility. They need to solve their problems 
now.
    Water managers are looking for projects that involve limited 
Federal involvement and can produce water on a faster scale. This can 
also be seen in the 53 water recycling projects Congress has authorized 
since 1992. This can also be seen in the leveraging of Federal funds 
through the WaterSMART program.
    The threat to our water supply is real. We have many challenges 
like climate change, decreased snowpack, increased demand and the 
development of alternative water intensive fuels like Oil Shale. Not 
all of the water needs in the west can or should be met by new dams or 
bigger dams. New storage is not always the right answer, and the same 
can be said of water recycling or desalination. What works for one 
community may not work for others, and we must select the most 
effective AND affordable solution.
    To know the right solution for the community is to have all the 
options on the table. Looking at just surface storage does not provide 
our water managers with the baseline data they need to serve our 
communities.
                                 ______
                                 
    Mr. McClintock. The Chair is now pleased to recognize the 
Chairman of the Natural Resources Committee, The Honorable Doc 
Hastings of Washington.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you very much, Mr. Chairman for holding 
this hearing, and thank you for the courtesy of allowing me to 
make a statement.
    I believe that America needs an ``all of the above'' water 
supply strategy. Today's hearing, I think, is a step in the 
right direction. Water storage has been the key to economic 
prosperity and a way of life in my Central Washington District, 
which is home to two large Federal water projects and an 
integral part of the Columbia River power system.
    Together these two projects irrigate more than a million 
acres of farmlands, make possible a vital navigation link for 
millions of tons of grains and commodities annually. It 
provides numerous recreation and flood control benefits, and 
these projects, not wholly within my district, but these 
projects provide over 21 billion kilowatt hours of carbon-free, 
renewable hydroelectric power to customers throughout the 
Pacific Northwest.
    Before these projects were constructed, this area was an 
arid desert where there was little but tumbleweeds and 
sagebrush. Today it is one of the most productive and diverse 
agriculture areas in the world. As we will hear later today, 
Yakima County in my district is one of the top agricultural 
areas in the Nation, ranking 12th nationally in total value of 
agriculture products sold.
    Without a doubt, this is possible because a prior 
generation had the vision of capturing spring runoff to deliver 
water during dry times. Surface storage continues to have 
lasting and positive impacts not only in my Central Washington 
District, but to the country in general. But these projects are 
under constant assault by litigation and other pressures to 
change their operations to other purposes.
    I will continue to oppose these policies that change 
existing projects and their historical mission, but, Mr. 
Chairman, what is obvious is that it is necessary for us to 
build more surface storage if we want to maintain our 
prosperity. I am aware of those who say that conservation is 
the only way to produce more water. Conservation can and should 
play a role. However, it alone is not the answer.
    After all, you cannot conserve water that has already been 
lost to the ocean, and you cannot conserve water that does not 
exist.
    We will hear testimony today, particularly from Mr. Derek 
Sandison of the Washington State Department of Ecology, that 
conservation has its limits and that more storage is necessary 
to account for lost water and potentially drier times.
    And we will also hear that Federal rules and regulations 
make any such individual projects' costs prohibitive and 
sometimes infeasible. Amidst the painfully long permitting 
process and the uncertainty associated with it, most of these 
projects and the investments that they attract are negatively 
compromised before they can even get off the ground. This is a 
paradigm that must change because the supply and demand numbers 
simply do not add up.
    Again, in the Yakima River Basin alone over 450,000 acre-
feet of additional storage is needed for multiple human and 
species needs. This is not a new discovery. Yakima has been in 
need of additional water storage for many decades, and 
achieving this goal has been and is a top priority of mine. Yet 
I am concerned that our existing Federal regulatory framework 
may not allow this to happen and that without action drought 
and dry years would again bring economically devastating 
rationing of water supplies.
    Conservation and construction of storage must go hand in 
hand for this to work. Real credit, again, goes to Mr. Sandison 
and the local group of all stripes who came together in the 
working group on the Yakima Basin, and they have stayed at the 
table to seek a truly collaborative approach to solving 
Yakima's waters needs. Real demonstrable progress has already 
been made and while it will take time, patience and creativity 
to achieve, building new storage is absolutely critical.
    It is this generation's turn to recognize our Nation's 
growing water needs and to take steps to meet it. For us to 
have another water supply renaissance, we must embrace new or 
expanded storage so we can truly have ``all of the above'' 
water supply strategy well into the future.
    We have the power to make that happen, and we will push 
legislative reforms to bring regulations back to reality.
    Once again, Mr. Chairman, thank you for having this 
hearing, and I look forward to hearing what the witnesses have 
to say, and I will yield back my time.
    [The prepared statement of Mr. Hastings follows:]
  Prepared Statement The Honorable Doc Hastings, a Representative in 
                 Congress From the State of Washington
    Thank you, Chairman McClintock, for holding this important hearing 
today. I firmly believe that America needs an ``all-of-the above'' 
water supply strategy. Today's hearing is a step in that direction.
    Water storage has been the key to economic prosperity and a way of 
life in my Central Washington District, which is home to two large 
Federal water projects and the Columbia River power system. Together, 
these two projects irrigate more than a million acres of farmland, make 
possible a vital navigation link for millions of tons of grain and 
commodities annually, provide numerous recreation and flood control 
benefits and provide over 21 billion kilowatt hours of carbon-free, 
renewable hydroelectric power to customers in the Pacific Northwest.
    Before these projects were constructed, this area was an arid 
desert where little but tumbleweeds would thrive. Today, it is one of 
the most productive and diverse agricultural areas in the world. As we 
will hear later today, Yakima County is one of the top agricultural 
areas in the Nation, ranking 12th nationally in the total value of 
agricultural products sold. Without a doubt, this is possible because a 
prior generation had the vision of capturing spring runoff to deliver 
water during dry times.
    Surface storage continues to have lasting and positive impacts not 
only in Central Washington but to the country in general. Yet, these 
projects are under constant assault by litigation and other pressures 
to change their operations to other purposes. I will continue to oppose 
these policies that change existing projects and their historical 
mission. What is obvious is that it is necessary for us to build more 
surface storage if we want to maintain our prosperity.
    I'm aware of those who say that conservation is the only way to 
produce more water. Conservation can and should play a role; however, 
it alone is not the answer. After all, you cannot conserve water that 
has already been lost to the ocean or simply doesn't exist.
    We will hear testimony today--particularly from Mr. Derek Sandison, 
from the Washington Department of Ecology--that conservation has its 
limits and that more storage is necessary to account for lost water and 
potentially drier times. Yet, we will also hear that Federal rules and 
regulations make many such individual projects cost prohibitive and 
infeasible. Amidst the painfully long permitting process and the 
uncertainty associated with it, most of these projects and investment 
interest are negatively compromised before they even get off the 
ground.
    This is a paradigm that must change because the supply and demand 
numbers simply don't add up. In the Yakima River Basin alone in my 
district, over 450,000 acre feet of additional water storage capacity 
is needed for multiple human and species needs.
    This is not some new discovery. Yakima has been in need of 
additional water storage for many decades, and achieving this goal is a 
top priority of mine.
    Yet, I am concerned that our existing Federal regulatory framework 
may not allow this to happen and that without action, drought and dry 
water years could again bring economically devastating rationing of 
water supplies.
    Conservation and construction of storage must go hand-in-hand for 
this to work. Real credit is owed to Mr. Sandison and the many local 
partners of all stripes who came to the Working Group table--and have 
stayed at the table--to seek a truly collaborative approach to solving 
Yakima's water needs. Real, demonstrable progress has already been made 
and while it will take time, patience and creativity to achieve, 
building new storage is absolutely critical.
    It's this generation's turn to recognize our Nation's growing water 
needs and to take steps to meet it. For us to have another water supply 
renaissance, we must embrace new or expanded storage so that we can a 
truly have an all of the above water supply strategy well into the 
future. We have the power to make that happen and we will push 
legislative reforms to bring regulations back to reality.
    In closing, I again want to thank Mr. Sandison and other witnesses 
for their leadership and for being here today. You are the ones on the 
ground who deal with water supply uncertainty every day. Your stories 
and needs will help guide this committee in bringing about resolution 
to these pressing issues.
                                 ______
                                 
    Mr. McClintock. Thank you.
    The Chair is now pleased to recognize the Ranking Member of 
the House Natural Resources Committee, Mr. DeFazio for 5 
minutes.

  STATEMENT OF THE HON. PETER A. DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. I thank the gentleman, and I thank the full 
committee Chairman for his statement.
    This is another area where I think there are substantial 
grounds for agreement between the majority and the minority in 
terms of our objectives. But perhaps the path there that we 
envision is maybe a little more complicated, maybe a lot less 
expensive, and something that has not been talked about much.
    I mean, we are living off of a 19th and 20th century 
infrastructure as relates to water storage in the Western 
United States for the most part. There are areas where we have 
just ditch systems that can be improved at a very low cost and 
deliver additional water.
    There are other innovative things that could be done. What 
we need is to take a really comprehensive look at all the 
factors that are playing in here. We have a system that is in 
places deteriorated and needs restoration and repair. We have 
some that needs upgrading. There certainly are places where we 
could look at new infrastructure.
    The major impediment, however, is the same impediment that 
we have on roads, bridges, highways, and transit, the same 
impediment that we have on the Corps of Engineers' projects 
across the United States of America, and that is we are not 
investing in America's infrastructure the way our competitor 
nations are around the world. We are simply not doing that.
    I have spent a lot of time on this, particularly on the 
Transportation Committee, but it applies over here, too. We are 
not investing as has been pointed out here in water 
infrastructure. We need to make a commitment, and we need to 
determine that there are investments, and there are simple 
expenditures of government funds. We do not discriminate in 
that way, and in fact, we have tied our hands even further by 
saying, ``Well, we cannot have any of those earmarks.''
    That means if you want to deal with a project in a State, a 
new irrigation project, a storage project, you are probably 
going to get hung up by the rules.
    So, we have to take an approach that is, I think, more 
comprehensive, look at changes in population, look at changes 
in the weather, look at new technologies that are out there or 
improvements that are out there for the existing system; how 
much can be gained then; what is the cost-benefit analysis that 
relates there, and then, yes, we can look at additional storage 
as needed.
    But massive new storage projects, particularly storage 
projects that would employ 20th century engineering techniques, 
are not the long-term solution to the western problems. We are 
looking at major problems even in the Northwest where people 
make jokes about our rainfall on the west side, docks on the 
east side where they don't get that much rain, but even there 
we're seeing major changes in patterns that are going to 
overwhelm or under-whelm our existing system potentially 
because of early snow melt, patterns in the last few years of 
very heavy rains and warm weather well into the winter season 
which leaves less snow pack, which leads to higher flows, new 
challenges to the system, so the major systems like the 
Columbia Basin system to the Willamette system and others, and 
we simply need to take a comprehensive approach.
    I am pleased we are having this hearing here today, and I 
believe at least one witness, I think, maybe two will touch a 
bit on those themes.
    Thank you, Mr. Chairman.
    Mrs. Napolitano. Mr. Chairman, would you yield?
    Mr. DeFazio. Yes, certainly I would yield.
    Mrs. Napolitano. Thank you.
    And you talk about it, and that is why I believe we need to 
look at the infrastructure because some statistics prove that 
we lose about something like 22 percent of the actual water to 
water main breaks, and that's investment in infrastructure that 
is aging.
    So you are right. We need to do a very comprehensive look 
at it. So hopefully we will be working on that.
    Thank you, and I yield.
    Mr. DeFazio. I yield back the balance of my time.
    Mr. McClintock. The gentleman yields back.
    The gentleman from Colorado.

  STATEMENT OF THE HON. SCOTT R. TIPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Chairman McClintock, for convening 
today's hearing to pursue innovative ways to be able to promote 
new water storage while also examining different obstacles that 
are impeding that construction.
    Last month a deadly storm struck my home State of Colorado 
causing unprecedented lethal flooding that damaged over 16,000 
homes, destroyed hundreds of local businesses. My heart, as 
does everyone, goes out to all the families and business owners 
who are still struggling to be able to recover from this tragic 
event.
    But as the Chairman noted, with the exception of the 
Animas-La Plata Project in southwest Colorado, the Bureau of 
Reclamation has not built any new large multi-purpose dams or 
reservoirs over the last generation. Preventing all the damage 
from a storm of this magnitude in Colorado is impossible. 
However, our Nation's failure to develop new surface storage 
projects only continues to amplify the devastating results of 
storms like this one.
    Increasing water storage is critical. It is the natural 
cycle of rivers in the West, which is one of boom and bust, 
surplus and drought. Streamlining the regulatory permitting 
process is just one way to be able to reduce the ills 
associated with this cycle and can help better prepare those 
communities that rely on snow pack to support local economies. 
Colorado is a headwater State, and as the water information 
program in southwest Colorado reports, more than 10 million 
acre-feet of water flows out of Colorado watersheds annually. 
Thanks to the foresight of previous generations, water storage 
infrastructure was built throughout the West to be able to 
capture this vital resource. This infrastructure helped reduce 
the threat of catastrophic flooding and provided a secure and 
stable source of water.
    Many western cities have grown and prospered in part thanks 
to that water that originates in Colorado. Without the ability 
to be able to store water that falls on Colorado's slopes, the 
West as we know it would not exist. The Colorado Water 
Conservation Board has estimated by the year 2050, Colorado 
will need an additional 1 million acre-feet of water to be able 
to meet projected demands. This figure accounts for water saved 
through conservation.
    But water conservation is something all westerners know and 
the importance of it. Conservation is not enough. New water 
storage will play a role in meeting future demand and can also 
be utilized to be able to meet environment and species 
protection goals, support our farm and ranch communities, and 
ensure recreational opportunities that are consistent and 
address the reducing of destruction by wildfires as well as 
caused by drought conditions.
    Unfortunately, we have many groups that have failed to 
recognize the potential environmental benefits of increased 
storage, and they have held up development of new projects with 
endless litigation and a variety of other tactics. Rather than 
increasing storage capacity, some of these groups have instead 
focused on efforts to redistribute water from rural to urban 
areas.
    This is frightening not only from the perspective of water 
rights, but in terms of our Nation's food supply. This problem 
is exacerbated by the fact that Colorado farmers and ranchers 
have been enticed to sell over 190,000 acre-feet of water from 
municipal and industrial use since 1987.
    To make matters worse, the Greeley Tribune recently 
reported that in most years many of Colorado's farmers lease 
extra water from neighboring cities to maximize production, but 
this year cities concerned with refilling their depleted 
reservoirs leased far less water than normal to farmers, 
forcing some crop growers to plant less acres or plant crops 
that require less water.
    The growing West needs new water projects, and the Federal 
Government should be fostering a regulatory environment that 
encourages new surface storage production rather than stifling 
these efforts. Unfortunately, in too many instances, this is 
not the case. The Grande-Mace Water Conservancy District had 
planned to rehabilitate the breached reservoirs in the fall of 
2008, but cited various regulations as the reasons preventing 
them from moving forward on these projects.
    Even more troubling is an example from 2011 where the 
Bureau of Reclamation sent nearly $30,000 in cash for one 
survey to entice responders to go on record supporting the 
physical removal of four dams in California and Oregon. My hope 
is that today's oversight hearing will shine a light on some of 
the obstacles that are preventing the construction of new 
Federal and non-Federal water storage projects, as well as 
explore some innovative options, some technologies that will 
increase the capacity.
    Water is one of the most important natural resources in 
Colorado and a main driver of economic growth. Prudent supply 
management and the ability to be able to store much needed 
water will allow communities to support jobs that depend on the 
availability of water to protect food security, control 
flooding, ensure continued recreational opportunities, provide 
water for the development of hydropower, and meet environmental 
protection needs.
    Thank you, Mr. Chairman, for holding today's important 
hearing, and I yield back.
    Mr. McClintock. Thank you.
    The Chair is pleased to recognize Mr. Costa of California 
for 5 minutes.

 STATEMENT OF THE HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Chairman McClintock and 
Ranking Member Napolitano for holding this hearing.
    Title, road map for increasing our water and hydropower 
supplies, the need for new and expanded multi-purpose surface 
facilities. I concur on all of the above, but that is, I think, 
part of the story. The other part is using all of the water 
tools that are in our water management toolbox.
    And I think we made this overly complicated. Frankly, we 
know that particularly in the West, but certainly throughout 
the world, the climate is changing, and reservoirs that were 
based upon 100-year record of recordkeeping with snow packs 
receding, that those reservoirs have to be operated differently 
than they were in the past.
    And we know that we are going to need to capture additional 
water because when we do have that additional rainfall, we need 
to try to make sure that we can conserve it not only for the 
existing use, but for conjunctive use to make groundwater banks 
work because you can't inject that water in groundwater banks 
unless you have the surface supply to keep it when you get the 
rain.
    And so I really believe that we're kind of going about this 
all wrong in the sense that we've all got our favorite 
projects. I don't care if they're in California or if they're 
in Colorado or Washington. You go on, you know. You have your 
list of favorite projects. They are part of many of our talking 
points.
    However, the fact is that we know that we have an existing 
shortfall in Western States as we have around the world. We 
ought to be able to come to some kind of conclusion as to what 
that annual shortfall is in terms of acre-feet, and we ought to 
look at the next long-term efforts over the next 20 or 40 years 
as to what the additional need is notwithstanding the 
implementation of conservation, groundwater baking, water 
transfers, desalinization. All of these are part of the tools 
that we have to use.
    And then we ought to have one underlying guide that we all 
subscribe to that is a good, conservative principle. What is 
it? It is what is the most cost effective because 
notwithstanding your favorite project or my favorite project, 
at the end of the day, this water costs more than it did when 
our parents and our grandparents developed the projects that 
we're living off of today.
    Yes, the new costs will have to be blended with the 
existing old costs. That makes it more financially feasible, 
and that is what we ought to be doing. So it seems to me that 
in California, and I will be California-centric for a moment, 
we have 38 million people. We have a water system designed for 
20 million people. By the year 2030, we are going to have 50 
million people.
    If we are going to continue to economically be successful 
in California, we are going to have to grow our water supply by 
using all the water tools in that water toolbox, and we need to 
do it in the most cost effective way possible. So we use 
conservation. We use desalinization. We use groundwater 
banking, and yes, we do additional reservoir surface supplies. 
Raising Shasta is a good project. Temperance Flat I think has 
merit. The States looking at site's reservoir is a potential, 
and, yes, we could expand Los Vasqueros a second time. All of 
those reservoir surface storage projects have multiple 
benefits.
    The trick, of course, is how you pay for them, and to that 
end Senator Feinstein and I have asked the Bureau of 
Reclamation to the extent that they're involved in High Shasta 
and Temperance Flat to expedite studies that have been going on 
for way too long. We need to get the feasibility studies 
complete so we can then determine the cost feasibility and 
whatever other potential challenges we face.
    I mean, obviously, a number of these projects have 
environmental opposition, and yes, that gets to the regulatory 
aspect because, frankly, the Endangered Species Act passed 
under and was signed into law by a good Republican 
administration, I think, has gone in the directions that many 
of us would not like to see it today. Ever since Tennessee 
Valley Authority v. Yale, we have aspects of the Endangered 
Species Act that I think have been used in ways that are 
counterproductive.
    Therefore, we need to look at how we deal with that. In 
California, we have a real challenge there, but I will continue 
to support the Governor in his efforts with the Bay Delta 
Conservation Plan that includes adding additional surface 
storage along with using the other water management tools in 
our water toolbox.
    If we are going to agree on what our deficits are, whether 
it is in California and whether in other Western States, and 
what we need to add in terms of acre-feet, and then figure out 
what is the most cost effective to develop that additional 
water supply, I mean, wet water is wet water, and frankly, the 
water that takes us to a population of 50 million people for 
our urban population to maintain our agriculture economy and to 
deal with the environmental issues is what I support.
    Thank you very much for listening to me.
    Mr. McClintock. The Chair now recognizes Mr. Valadao of 
California.

  STATEMENT OF THE HON. DAVID G. VALADAO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Valadao. Thank you, Mr. Chairman.
    Mr. Chairman, thank you for convening this subcommittee 
today to discuss the important issue of water storage and for 
your continued leadership on this subject.
    My congressional district includes some of the most 
productive and diverse farmland in our Nation. We are proud of 
our agriculture heritage and the crops we produce, but we know 
that we would not be where we are today without previous 
generations' decisions to invest in water infrastructure.
    Reservoirs and dams play an important role by capturing 
water in wet years, protecting families from flooding and 
giving water managers the ability to provide a regular flow of 
water in times of drought.
    In addition, dams and reservoirs provide nearly 15 percent 
of all electricity in our home State of California and account 
for well over half of all renewable energy produced nationwide.
    Unfortunately, the investments in water storage made by 
previous generations have not continued into the modern day. 
Today over two-thirds of all Bureau of Reclamation facilities 
are over 50 years old. In my home State, the Central Valley 
Project, designed to provide critical water delivery for 22 
million families and farmers, is now stretched thin, and the 
same system now serves over 38 million individuals.
    Restricted by heavy-handed regulation and litigated by 
environmental activists who have turned suing the government 
into a multi-million dollar taxpayer funded industry, our 
Nation's water systems have failed to keep up with today's 
demands. Today farmers and families across the district are 
feeling the real impacts of restricted infrastructure growth.
    The most unfortunate part of the recent water shortages is 
that it does not have to be this way. It is not that we are a 
society that uses too much water or that we have become more 
efficient. Rather, the investment in our water infrastructure 
has failed to keep pace with our growing population and 
economy.
    In 2009, Federal regulations magnified the impacts of the 
drought to leave Central Valley Project farmers with a 10 
percent water allocation. As a result, thousands of acres of 
farmland were fallow and more than a billion in income and 
20,000 jobs in the region were lost. The impacts are still 
being felt today.
    This year, because of onerous regulation under the 
Endangered Species Act, over 800,000 acre-feet of water was 
allowed to flow out to the sea rather than be delivered to 
farmers and families in my district who need it most. Today 
water shortages and environmental red tape are forcing 
California farmers to deal with 20 percent of their water 
allocation.
    Next year, because of the same bureaucratic overreach, 
farmers--and this very well may be a 0 percent year for us, for 
individuals, economies and civilizations--the same truths hold 
true. Without water you die.
    Although there are many factors that contributed to the 
2000 water crisis, one thing is clear. The ability to store 
more water in wet years could have guarded against the 2009 
crisis and the new one we are facing in 2014. Water storage 
provides many benefits, but the most important benefit it 
provides is the assurance that when times are dry, water will 
be there for families, to water crops, to protect jobs, and to 
continue to fuel our economy.
    We must invest in our water infrastructure today so we can 
be assured for our tomorrow. I thank the Chairman for this 
opportunity to be here to discuss this important water topic.
    Thank you.
    Mr. McClintock. Thank you.
    Mr. Huffman of California.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chair.
    I look forward very much to this discussion today, and in 
terms of my opening remarks, I guess I want to respectfully 
push back a little bit against the idea that it is somehow 
environmental regulations or environmental standards that are 
holding up the possibility of constructing lots of new dams.
    I am not aware of a single dam, at least in California, 
maybe throughout the West, that actually has the financing in 
place to happen and is being held up because of environmental 
requirements. If somebody here today knows of such a project, I 
would love to know that.
    I am aware of a lot of new dam proposals that are being 
held up because of feasibility studies and the basic 
requirement that beneficiaries find a way that they can 
actually pay for these things before we start to build them. 
That is common sense, and that is sort of the law of reality 
and financing. That is not any particular environmental 
standard.
    The fact is the most cost effective dams in California and 
in other parts of this country were built a long time ago. The 
remaining dam sites that are under consideration are far more 
expensive and far less productive because the biggest dam in 
the world doesn't make it rain or snow anymore. You are talking 
about managing the same increment of water.
    There was a statement made at the outset that conservation 
does not add more water. I think if we had a few of the water 
managers from southern California and other parts of California 
here today, they would tell you that is absolutely false. There 
are so many conservation strategies that we have pioneered in 
recent decades that do produce more water.
    We need to hear that perspective. We need to hear how 
evaporative losses and other losses have been dramatically 
reduced by pioneering conservation strategies far cheaper, by 
the way, than the tremendous price tag of building new surface 
storage.
    We need to hear how transmission losses and efficiencies in 
the actual water infrastructure, as the Ranking Member likes to 
talk about, can dramatically increase the amount of available 
water, wet water for beneficial uses throughout the system.
    It is sort of assumed and was assumed in the opening that 
cheaper water is better than more expensive; therefore, we 
should be moving to surface storage before recycling and 
desalination. Well, there is a reason why new dams are 
generally not being constructed. There are some exceptions. Los 
Angeles and others have found a way to find the money, and they 
have been able to move forward with their surface storage, but 
there is a reason why you are seeing more recycling and 
desalination starting to happen. That is because people are 
willing to pay for them.
    These are not projects that are carrying with them huge 
Federal subsidies like the kind of new surface storage projects 
that we like to talk about in these discussions. These are 
projects that San Diego and other places have decided are 
important enough to them that they are willing to actually pony 
up their own money and make them happen.
    The statement that the last major surface storage in 
California was New Melones in 1979 is not correct. That was the 
last Bureau of Reclamation Central Valley Project surface 
storage, but as the Ranking Member pointed out, there have been 
huge new surface storage projects that have come on line in 
California, but again, the secret to making them happen is that 
people did not put their hand out and ask for huge Federal 
subsidies. They actually found beneficiaries that were willing 
to pay for those projects, and guess what. The environmental 
laws did not stop them. They actually happened: Los Vaqueros, 
Diamond Valley. There are lots of other local surface storage 
projects that they have been able to find a way to actually 
make happen.
    So it is really important, I think, as we move forward with 
this discussion to sort of tease out the religion of surface 
storage from the actual facts on the ground. It would be nice 
to hear from more water managers that have actually found ways 
to build these projects because there is another story to be 
told here, and there is all sorts of water that we can be 
making available for all the beneficial uses that I know we all 
care about if we focus on creative strategies and the realities 
and the finances of water management instead of bringing out 
the old dogma about environmental laws and new dams being 
something that would happen in the absence of the Endangered 
Special Act.
    So I look forward to our discussion, and I will try to 
bring it back to those realities whenever I can.
    Mr. McClintock. I think we will now hear from our panel of 
witnesses. Each witness' written testimony will appear in the 
hearing record. So I would ask that you keep your oral 
statements to 5 minutes.
    The timing light is pretty simple. Yellow means you have 1 
minute left. Red means stop, and that is all you need to know 
about the timers. With that I am pleased to recognize Mr. 
Robert Shibatani. He is the CEO and Principal Hydrologist of 
the Shibatani Group from Sacramento California. Welcome.

 STATEMENT OF ROBERT SHIBATANI, CEO AND PRINCIPAL HYDROLOGIST, 
                   THE SHIBATANI GROUP, INC.

    Mr. Shibatani. Thank you very much.
    Good afternoon, Mr. Chairman and members of the 
subcommittee.
    After what appears to be several decades of relative 
idleness, if you want to put it that way, water managers, water 
practitioners across the Nation are now realizing that we are 
embarking upon a new era of dam and reservoir revitalization 
and one that is quite different than what we experienced in the 
past. I would like to spend a few moments with all of you this 
afternoon talking about one specific aspect of that discussion/
debate, and that is related to some of the opportunities 
emerging related to high elevation and new storage.
    Let me perhaps begin by defining what that is. High 
elevation storage in California represents new facilities above 
existing State, Federal and local agency impoundments that 
currently ring or circle the Central Valley and what we 
operationally label as terminal or rim reservoirs.
    So given their location, there are a number of 
distinguishing factors that make these facilities quite 
different than their historic counterpart. For one, they are at 
high elevation, which means that they are at the source area of 
both snow accumulation and the potential effects of climatic 
forcings brought upon by climate change, and we are observing 
some of those effects today.
    Number two, because of their remote location, some of the 
potential population displacement risks are largely 
marginalized relative to other facilities.
    Number three, the construction related effects associated 
with their development, things such as sensitive receptors to 
such things as noise, air quality, traffic disruptions, 
possibly even land use conflicts, are largely marginalized 
relative to reservoir sites more closely situated near high 
population centers.
    Fourth and finally, their distal proximity to the 
downstream outflow locations, either the Pacific Ocean or some 
estuary--California is a good example, the Bay Delta--along 
with the interceding reservoirs between them in the Pacific 
Ocean largely mean high elevation storage facilities are 
largely immune or unaffected by downstream delta water quality 
requirements.
    Now, functionally, hydrologically, capturing new upstream 
precipitation provides a downstream flood control benefit at 
the point source of runoff generation. So it is the first line 
of defense for flood control, very, very different from levy 
management, which is the last line of defense for flood 
control.
    Now, the additional storage developed in these upstream 
reservoirs also provides a number of environmental benefits, 
such things as habitat protection flows, fish attraction flows 
for journeying adult spotters, pulse flows or downstream water 
quality control, including estuaries that have salinity as a 
major issue. And the last issue, of course, is dilution 
potential for the many thousands of NPDES and waste discharge 
requirements that are currently in existence today.
    Significantly, high elevation storage also provides 
operational flexibility for those jurisdictions that enjoy 
joint Federal water project operations, local and regional 
water supply sustainability, and the support for a very robust 
and active water transfer market.
    From an endangered species perspective, high elevation 
storage provides additional cold water pool reservoir assets 
that are very, very important for in-stream thermal management. 
New dams and new reservoirs, as we all know, there are many 
emerging studies that are confirming that those facilities 
provide an effective adaptation to the effects of climatic 
change brought about by either warming temperatures or a change 
of precipitation form.
    So such things as a shifted hydrograph in upstream 
watersheds, things such as annual yield differentials, things 
such as extreme event probabilities associated with climatic 
forcings are all each accommodated through new high elevation 
storage.
    Now, I get the question asked quite frequently whether new 
dams are even possible in this contemporary context, and I 
usually answer that query with a flip question in return, and I 
approach this from a hydrologic perspective only because that 
is the limitation of my expertise. So I ask the prescient 
question: does a watershed experience at any time of the year 
uncontrolled releases (a) or surplus flows (b) during any given 
water year?
    Typically, in the Western States, in the Mountain States, 
that answer is yes. That uncaptured flow is the water that I 
want to serve as a foundational basis for new water storage 
development across the Western States.
    Now, Mr. Chairman, let me conclude by saying that there are 
a number of challenges that lay ahead of us clearly. Many of 
them in my view are regulatory driven, and in my experience in 
the work that I have done on water supply development for the 
last 30 years, there has never been a more pressing and 
prescient time for new storage development in the United States 
today.
    There are a number of growing concerns, demands associated 
with new supply security, water quality control, including 
protection from saline intrusion associated with sea level 
rise. All of these, Mr. Chairman, can be accommodated by new 
high elevation storage potential adaptations across the Western 
and Mountain States.
    With that I want to thank you for your time.
    [The prepared statement of Mr. Shibatani follows:]
Prepared Statement of Robert Shibatani, CEO and Principal Hydrologist, 
           The Shibatani Group, Inc., Sacramento, California
    Good morning Mr. Chairman; distinguished members of the 
subcommittee.
    I want to thank you for the opportunity of appearing before you 
today. I appreciate your indulgence in allowing me to share with you 
what I feel are prescient opportunities in improving U.S. water supply 
security and resiliency. These same opportunities also allow us to 
address the chronic need to improve ecosystem functionality and species 
recovery, and reassess the persistent dichotomy between long-standing 
flood control management and water supply development. The 
opportunities I speak of are related to new water storage and, in 
particular, high elevation storage.
    Such facilities in my view, can serve as an effective new platform 
to directly meet the challenges posed by a growing population, refocus 
attention on retaining a larger portion of a valuable public trust 
resource for a wide variety of beneficial uses, encourage a broader 
commitment to improving the Nation's aging water infrastructure, and 
provide direct climate change adaptation. Ensuring water security can 
provide a vital foundational basis for robust national economic 
recovery.
    By way of brief background, I am physical hydrologist and current 
CEO of The Shibatani Group, an international climate change hydrology, 
water governance, and water resources development advisory firm based 
in Sacramento, California. I have been working exclusively in the 
fields of hydrologic research and applied water resources management 
consulting for 30 years. While my technical specialties are in snow 
hydrology and climate change watershed functionality, my applied 
specialties are in new water storage and water supply development.
    The focus of my testimony this afternoon centers on the current new 
era in dam/reservoir revitalization, particularly those elements 
associated with what I term high elevation storage, and some of the 
factors that are making this contemporary era of dam/reservoir planning 
quite different than those of past eras. I draw upon examples from 
California, but the principles are consistent wherever unattenuated 
surplus flows exist and, particularly, under climate change, to snow 
dominated watersheds.
    To be sure, new dams and reservoirs evoke strong emotions and in 
many ways represent an identifiable icon in the long-standing polarity 
between environmental and development interests. Yet, the functional 
basis for this polarity is diminishing even if perhaps the rhetoric is 
not.
    Changing hydrologic conditions in many of our Nation's watersheds 
are compelling water managers to look at long-term water management 
quite differently than they ever have before.
    To begin my testimony, let me start by defining high elevation 
storage. High elevation storage includes primarily, those new on-stream 
dams and reservoir sites above existing or terminal reservoirs. So, 
taking the expansive Central Valley of California as an example, it 
includes new reservoirs that would be constructed above the existing 
Federal, State, and local agency impoundments that circle the Central 
Valley, and are known as the ``terminal'' or ``rim'' reservoirs.
    Given their location, there are numerous factors that distinguish 
these types of reservoirs from others and provide certain advantages 
relative to their historic counterparts. They are located at high 
elevation and so, are at the source areas of snow accumulation and the 
areas where the effects of climatic forcings are first being observed. 
They are typically in remote areas so population displacement risks are 
minimized. Moreover, typical construction-related effects such as 
sensitive receptors to noise, air quality, traffic disruptions, and 
land use conflicts are significantly reduced, relative to those closer 
to more populated areas. Their proximity to the Delta and the presence 
of intervening reservoirs means that they are largely unaffected by the 
regulatory impositions for Delta water quality.
    Hydrologically, their location above existing terminal reservoirs 
provides several benefits. By capturing precipitation at its upstream 
source, downstream flood protection is addressed at the point of runoff 
generation. Retaining additional water in high elevation upstream areas 
provides relaxation of the flood encroachment rules in the downstream 
terminal reservoirs. This of course has positive implications to water 
supply and other later season environmental water uses since the 
terminal reservoirs would not have to be drawn down as far during the 
winter season as they are now. The risk of non-refill, therefore, is 
reduced relative to the size of the new reservoir and overall annual 
yield of the watershed.
    To be candid, this is where I have often run counter to levee 
proponents in the flood control debate who posit that levees by 
comparison represent the first line of defense in flood protection. 
While commonly stated, this thinking ignores the truism that flood 
risks result from unattenuated high flows from upstream areas. The 
first line of defense is more aptly represented by eliminating or at 
least reducing the upstream flood release in the first instance. 
Additional storage does just that.
    New high elevation storage reservoirs offer significant additional 
operational flexibility for water resource managers in many other 
areas. The premise is really quite simple. Capturing a larger portion 
of water that would otherwise be lost during the rainy season provides 
the additional assets that water managers can then put to direct 
beneficial use later on. In many ways, it converts what can be viewed 
as wastage and simply holds it in reserve until it can be used more 
beneficially later in the year.
    One of the significant advantages of high elevation storage is the 
conversion of energy from potential to kinetic. By simply running water 
through turbines along its natural oceanic migration we generate a 
natural and highly reliable energy source based on the facts that (1) 
it rains every year and (2) water always runs downhill.
    The resulting higher carryover storage in those downstream 
reservoirs also provide many environmental benefits including habitat 
flows, side channel/pond replenishment, fish attraction flows, pulse 
flows for maintaining downstream water quality (particularly important 
where estuarine salinity is an issue), and dilution potential for the 
thousands of NPDES permits and waste discharge allowances in existence. 
Moreover, in the upstream areas, which are traditionally dry after the 
spring melt period, additional storage provides enhanced opportunities 
to maintain instream wetted perimeters and reduce upper basin 
desiccation.
    Anything requiring instream flow augmentation will benefit from new 
storage and high elevation storage maximizes the potential for those 
many benefits.
    This added storage also provides significant improved flexibility 
for water supply deliveries; both locally and regionally, as well as 
helping to enhance local water-related recreation, tourism, and local 
small businesses.
    At the Statewide level, additional storage provides enhanced 
opportunities to improve overall CVP/SWP operational flexibility. 
Moreover, it provides increasing capabilities to offset recurring 
shortages imposed by the Federal/State water projects through an active 
and robust water transfer market. This is an important consideration 
since water transfers serve as a significant revenue source to several 
local special districts based on (A) a commodity that is replenishable 
annually; (B) would have otherwise been ``lost'' to the ocean, and (C) 
can provide concurrent environmental benefits in its carriage water 
function.
    From an endangered species mitigation perspective, high elevation 
storage can provide direct hydrologic benefit to a major stressor that 
has contributed to the threatened state of listed anadromous fish 
species along the west coast.
    NOAA's Biological Opinions for Central valley steelhead and the 
various runs of Chinook salmon associated with the long-term operation 
of the Federal/State water projects in California identified water 
temperature as a critical issue. It is not the only issue, as invasive 
species, exports, water quality, genetic alteration, and ocean 
conditions all play a role, but water temperature is a significant 
issue.
    Instream water temperature is largely controlled by releases from 
the terminal reservoirs. Again, with additional high elevation storage, 
the need to maintain existing flood encroachment in the downstream or 
terminal reservoirs is reduced. If then, greater refill is allowed to 
occur then, on average, we can expect higher carryover storage as we 
enter into the irrigation or high demand season. If we make the 
assumption that there is a linear relationship between reservoir total 
volume and the hypolimnitic volume, that is, the coldwater pool at the 
bottom of reservoirs, then additional coldwater can be generated by the 
mere existence of new high elevation storage reservoirs. Such coldwater 
pool assets for ESA-related anadromous fishery protection--covering 
thermally sensitive life-cycles of these listed fish species would 
provide significant benefit to NOAA's mitigation actions. This would 
help improve, protect or otherwise restore vulnerable salmon and 
steelhead populations within our freshwater systems.
    In other words, with new high elevation storage, we can, through 
coordination operations, significantly improve the ability to address a 
major stressor that has contributed to the decline of these federally 
listed endangered species.
    As with dams, climate change is also a subject that in contemporary 
discourse possesses passionate responses. We have all seen plenty of 
examples of this.
    As a hydrologist, as with most applied practitioners I hope, I tend 
to strip climate change of all the political rhetoric and focus solely 
on its physical implications. Climate change adheres to the same 
physical laws as the hydrological environment for which it is imposing 
an effect.
    The fact remains, regardless of the causation debate, our 
hydroclimatic regimes here in the United States and indeed across the 
globe are changing and, in many cases, changing rapidly. As the recent 
IPCC WGI Report released earlier this month in Stockholm confirmed, 
anticipated climatic forcings will continue (and more aggressively) 
affect our watersheds. How, where, and when to apply new physical and 
operational prescriptions to accommodate such changes are only just 
beginning. And new storage will play an important role in this managed 
adaptation.
    But how does climate change factor into the discussion regarding 
new dams? New dams, as numerous studies are now demonstrating, provide 
an effective adaptation measure to the effects of climatic shifting on 
hydrologic regimes. How? By providing attenuation capability of 
additional water made available within high elevation watersheds. 
Runoff response will be more instantaneous as more precipitation will 
fall as rain as opposed to snow, thus eliminating a natural storage 
reservoir we have relied on for decades. With increased early season 
runoff, the antecedent moisture within most watersheds will also 
increase leading to earlier saturation and accentuating the runoff 
response later in the season.
    As water practitioners increasingly accept the hydrological 
realities of these changing conditions, many have accepted the 
necessity of new storage as an effective means of preserving our 
control over this vital resource. New high elevation reservoirs provide 
that first line of management control. Focus is centered on the exact 
areas where climate change will first affect a region's entire water 
availability.
    A common argument against new dams is the blockage of historic fish 
passage; most notably the listed anadromous fish species that have had 
their original spawning ranges significantly curtailed with the 
construction of today's existing dams. High elevation storage, however, 
are proposed to be situated in locations well above existing dams and, 
in many cases, above a series of already existing impoundments. Fish 
passage is not an issue. To be sure, programs such as the Interagency 
Fish Passage Steering Committee are looking at re-introducing listed 
species above the terminal reservoirs, but again, in many areas, 
several existing impoundments already exist before we get to those high 
elevation areas.
    A prescient question today is--are new reservoirs even possible? To 
answer that query, I typically ask a very fundamental question; does 
the watershed experience uncontrolled releases or surplus flow 
conditions at any time of the year? Typically, the answer is yes. It is 
that yield that I propose to capture with new high elevation storage 
facilities.
    Taking California as an example, it is not difficult to see why 
this makes sense. On average, we receive about 200 MAF of precipitation 
each year. Of that, we ``manage'' about 40 percent or 80 MAF. By 
``manage'' I am referring to water that is allocated and prescribed for 
beneficial use--it is our ``dedicated'' yield. This includes urban, 
residential, M&I, and Ag water as well as that water prescribed for 
environmental flows purposes--including instream flows, Wild & Scenic 
Rivers, and managed wetlands and wildlife refuges.
    That leaves the majority, or 120 MAF that is unavailable or lost. 
While much of that loss is uncontrollable, namely through direct 
evaporative or transpirative loss and deep percolation to the salt 
sinks, a large portion is also lost as outflow to the Pacific.
    As we all can appreciate, all rivers must maintain a minimum 
baseflow condition. There has to some water in the rivers--we cannot 
store all of it. But therein lies the test, how much water is 
appropriate in rivers in order to maintain all of the instream 
functions necessary to serve natural ecosystem and societal needs? On 
the one extreme of course is the flood season when most reservoirs are 
evacuating large quantities of water both before and during rain 
events. This is water that, but for perhaps 4 or 5 months, changes from 
a threat to an absolute necessity.
    This is where, in my view, there must be a concerted effort to 
``close the flood control and water supply gap''. It is an irrefutable 
edict of hydrology that says you cannot have a flood control and water 
supply issue in the same water year unless, the infrastructure is 
inadequate. That certainly seems to be the case today as we commonly 
experience flood control issues in mid-winter, only to turn around and 
cut water contractor deliveries several months later because our 
reservoir carryover storage is too low.
    The inconvenient truth is that we are today still relying on 20th 
century infrastructure and the assumptions attached to those early 
facility designs and yet are faced with 21st century issues.
    The population of California back in the early 1940s when many of 
the Federal water projects in the State were being planned and designed 
for example was less than 9 million. Today, 70 years later, our 
population exceeds 38 million. Leaving aside the increase in 
consumptive demands, original design capacities could not account for 
the growing and complex yield needs that have evolved over time; those 
of endangered species, wildlife refuges, and water quality control. All 
of this has led to an overall diminishment of available water supplies 
to water users since the total available yield has not changed, only 
its apportionment across a wider array of uses.
    Add in the hydrologic timing shifts associated with climate change, 
and it becomes essential that we look at water yield management with 
new eyes--ones that take seriously the reality that our static (and 
aging) infrastructure is increasingly being asked to accommodate 
changing hydrologic conditions and provide water to an ever increasing 
number of uses and increasingly complex timing modes. We have a 
continually migrating environmental baseline--yet our infrastructure 
has remained static. This goes against the widely accepted and 
fundamental hydrologic principle that states--stationarity is dead. In 
other words, we cannot rely on fixed infrastructure or historical 
assumptions given the rapidly changing and dynamic nature of our 
environment.
    In my view, I feel that we have emerged, perhaps by necessity, into 
a new era of water storage development. In fact, I have never seen such 
interest in new storage development as I am seeing today. Federal, 
State, and local/regional initiatives as well as urban water purveyors, 
power interests, and Ag districts are increasingly supporting the need 
to new water storage. That, together with a new player; private 
investor interests are making new storage a dynamic new reality.
    A growing number of Americans are slowly realizing the value of 
water, the increasing need to serve multiple beneficial uses, and the 
urgent need to move away from entrenched 20th century dogma regarding 
water infrastructure functionality--and take a refreshing new look at 
how we manage water under these rapidly changing circumstances. Closing 
the flood control--water supply gap is the first step toward this new 
charter--and high elevation storage is an effective means of 
accomplishing these new objectives.
    Mr. Chairman, let me close by saying that there are indeed many 
continuing challenges ahead. But never has there been a more pressing 
need for new storage than what exists today. Its ability to proactively 
meet the growing demands and concerns associated with water supply 
security, the need for clean energy, fish habitat enhancement, instream 
thermal refugia for listed fish species, downstream water quality 
protection, including protection against saline intrusion associated 
with SLR, improved flood control, and source area adaptation to the 
effects of climate change in our mountain regions are just some of our 
growing contemporary needs. In fact, for once, there almost appears to 
be bi-partisan acceptance between environmental and water development 
interests--one that did not exist even a few years ago, but now seem 
jointly accepting of this vital necessity for long-term societal 
health. High elevation storage is emerging as a critical facet in 
future water sustainability and an inimitable prerequisite for any 
national economic recovery mandate.
    New high elevation storage across the Western and Mountain States 
can help provide many of those benefits.
    I want to thank you Mr. Chairman and the subcommittee members for 
your time today. Hopefully, I have been able to shed light on some of 
the contemporary thinking in water resources management and am more 
than happy to answer any questions.
                                 ______
                                 
    Mr. McClintock. Great. Thank you very much.
    Now I would like to recognize Mr. Derek Sandison, Director 
of the Office of Columbia River for the Washington State 
Department of Ecology, from Yakima, Washington, to testify.

   STATEMENT OF DEREK SANDISON, DIRECTOR, OFFICE OF COLUMBIA 
         RIVER, WASHINGTON STATE DEPARTMENT OF ECOLOGY

    Mr. Sandison. Chairman McClintock and Congresswoman 
Napolitano and members of the committee, my office is 
responsible for water supply development in the eastern half of 
our State, what we refer to as the dry side of Washington, 
where average precipitation is often less than 10 inches a 
year. Management of water supply in this semi-arid part of the 
country has been typically contentious and often litigious.
    In 2006, the Washington State legislature passed landmark 
legislation known as the Columbia River Water Supply Management 
Act to improve water supplies in the eastern part of Washington 
State. That act directed my department to aggressively pursue 
development of new water supplies for both in-stream and out of 
stream uses and created a $200 million water supply development 
account.
    Our office estimates that the demand for additional out of 
stream water in the Columbia River main stem and tributaries is 
about 900,000 acre-feet, and unmet tributary in-stream flow 
needs are about 500,000 acre-feet. About one-half of the out of 
stream demand and about one-third of the unmet in-stream needs 
are in one tributary basin, the Yakima River Basin, which will 
be the focus of the latter portion of my presentation.
    Since its beginning 7 years ago, our office has initiated 
nearly 40 water supply projects under the 2006 legislation, and 
we estimate that by the end of this year we will have made 
about 300,000 acre-feet of additional water supplies available 
in our project areas.
    However, the on-the-ground efforts to address the serious 
water resource and aquatic resource problems of the Yakima 
Basin are just getting underway. The Yakima Basin is an 
approximately 6,000 square mile drainage basin in south central 
Washington. It supports a population of about 360,000 people, 
and it is the home to the Yakima Nation.
    The Yakima River Basin contributes over $3 billion annually 
to the agricultural economy of the State, and on the fish side 
historically the basin was the second largest producer of 
salmon and steelhead run in the entire Columbia Basin, second 
only to the Snake River.
    The Bureau of Reclamation operates five existing surface 
water reservoirs with a total capacity of about a million acre-
feet. It is about one-third of the annual runoff in the basin. 
The basin is heavily dependent on east slope cascade range snow 
path to supply water in the semi-arid lower basin during the 
summer months. Surface water resource at the basins are over-
appropriated and frequent droughts over the past several 
decades have demonstrated the vulnerability of the basin's 
water supplies.
    In-stream flows and aquatic resources of the basin have 
suffered as well. Runs of salmon and steelhead that once 
numbered at least 800,000 fish were reduced to about 8,000 fish 
by 1980. Three stocks of salmon have been extirpated and our 
steelhead and bull trout are ESA listed.
    In 2009, the Office of Columbia River and Reclamation 
started collaborating with the Yakima Nation and basin 
stakeholders to formulate a comprehensive strategy to address 
critical resource needs. That collaboration focused on 
expanding the work of the 1979 Federal Yakima River Basin Water 
Enhancement Project or YRBWEP and the 1994 congressional 
amendments that created Phase 2 of the YRBWEP.
    In April of 2011, consensus was reached on the Yakima Basin 
integrated water resource management plan, which we hope will 
become Phase 3 of the YRBWEP. The integrated plan proposes 
major ecological restoration of the Yakima River Basin, 
including providing for fish passage at all in-basin 
reservoirs, providing main stem and tributary habitat 
enhancements, and restoration of substantial portions of the 
upper watershed for both terrestrial and aquatic species.
    The integrated plan also calls for improvements in water 
supply through fostering expanded water markets, enhancing 
agricultural conservation, modifying existing storage 
facilities and constructing new storage facilities. The 
additional supply will provide drought relief to existing 
irrigators, water supply security to municipalities, water for 
fish out-migration, and water to mitigate the predicted loss of 
snow pack associated with climate change.
    It is recognized that implementation of the surface water 
storage elements will be difficult and expensive, but there is 
really no other sources of water available, size storage, that 
will be capable of meeting the full needs of the basin.
    Earlier this year the Washington State legislature with 
bipartisan support passed and Governor Inslee signed into law 
legislation authorizing our department to begin implementation 
of the integrated plan. At the Governor's request, the 
legislature also provided $131 million in appropriations to 
initiate implementation of the plan.
    However, to fully advance the integrated plan, the State of 
Washington will need congressional authorization and continued 
Federal financial participation as we move forward. So we look 
forward to continuing our longstanding partnership with the 
Federal Government, and thank you very much for the opportunity 
to testify.
    [The prepared statement of Mr. Sandison follows:]
  Prepared Statement of Derek Sandison, Director, Office of Columbia 
      River, Washington Department of Ecology, Yakima, Washington
    When most people think of Washington State, they visualize an area 
with a wet climate. While that perception is at least partially 
accurate, the rain forests on our Olympic Peninsula receive on average 
about 140 inches of rainfall a year, much of the east half of the 
State, which lies in the rain shadow of the Cascade Mountains, has a 
semi-arid climate. The total annual number of inches of precipitation 
in some portions of eastern Washington is measured in single digits. 
For example, in the lower Yakima River Valley of Washington, the annual 
precipitation is less than 9 inches. It is eastern Washington, the dry 
side of the State including most of the Washington portion of the 
Columbia and Snake River basins, for which my organization is 
responsible for management and development of water supplies.
    Management of water in the Columbia River and Snake River basins 
during the 1980s and 1990s was highly contentious and marked by 
protracted legal battles. Many of the tributary basins were and still 
are closed to further appropriation and dry year stream flows in many 
portions of eastern Washington have been seriously diminished, 
contributing to substantial reductions, and in some cases extirpation, 
in salmon and steelhead runs. In 2006, the State of Washington 
determined that it was time to take another tack.
    In that year, with strong bipartisan support, the Washington State 
Legislature passed and former Governor Gregoire signed into law 
landmark legislation known as the Columbia River Water Supply 
Management Act (chapter 90.90 RCW). The act directs the Washington 
State Department of Ecology to ``aggressively pursue'' development of 
new water supply for both instream and out-of-stream uses and created a 
$200 million water supply development account (bond fund) to support 
our water supply development activities. Expenditures from the account 
may be used to assess, plan, and develop new storage; improve or alter 
operations of exiting storage facilities; implement conservation 
projects, develop pump exchanges; lease or acquire water; or undertake 
any other actions designed to provide access to new water supplies 
within the Columbia River basin of Washington for both instream and 
out-of-stream purposes. The legislature made it clear that in meeting 
the water needs of the basin, we were expected to use all options at 
our disposal, or use what we term, a big tool box.
    The legislation required that two-thirds of water supplies 
developed through new storage and funded by the water supply 
development account be committed to out-of-stream uses. The remaining 
one-third would be allocated for instream uses.
    In implementing the legislation, our department was directed to 
focus on the following needs:

    <bullet> Finding replacement water for irrigators in the central 
            portion of the Columbia Basin, known as the Odessa Subarea, 
            where aquifer levels are rapidly declining;
    <bullet> Developing sources of water supply for the roughly 600 
            pending water right applications, some of which were 15 to 
            20 years old;
    <bullet> Finding an uninterruptible supply of water for a class of 
            water right holders whose water use is curtailed in drought 
            years; and
    <bullet> Developing sources of water to meet future municipal, 
            domestic, industrial, and irrigation needs within the 
            Columbia River and Snake River Basins of Washington State.

    To guide our water supply development investments as well as to 
define the extent of the water supply problems that we are required to 
address, the legislature required that a Supply and Demand Forecast be 
prepared every 5 years beginning in 2006. In 2011, the Department of 
Ecology's Office of Columbia River, in collaboration with Washington 
State University and the Washington Department of Fish and Wildlife, 
released the second Water Supply and Demand Forecast prepared under the 
2006 legislation. Preparation of the forecast involved a rigorous 
examination of instream and out-of-stream water needs and water 
availability for both the Columbia River and Snake River mainstems as 
well as all tributary basins. The forecast concluded that total out-of-
stream mainstem and tributary demand for additional water supply is 
about 900,000 acre-feet and unmet tributary instream flow needs are 
about 500,000 acre-feet. About one-half of the out-of-stream demand and 
about one-third of the unmet instream needs is in one tributary basin, 
the Yakima River basin, and will be the focus of the latter portion of 
my testimony.
    To address regional water needs, the Department of Ecology's Office 
of Columbia River has initiated nearly 40 water supply projects under 
the 2006 legislation. It is important to note that our partner in many 
of our water supply development activities, including the Odessa ground 
water replacement efforts and addressing the needs of the Yakima River 
basin, has been the U.S. Bureau of Reclamation (Reclamation). That 
collaboration has proven to be a valuable asset to the State of 
Washington.
    By the end of this year, we anticipate that we will have been 
successful in developing and making available about 335,000 acre-feet 
of additional water supply for instream and out-of-stream uses. We have 
developed that supply primarily through modifications to existing 
surface storage reservoirs, conservation and conveyance system 
improvement projects, and acquisitions. We are in the process of 
developing aquifer storage capacity at a number of locations and expect 
that the next increments of additional supply will come from those 
sources. By the end of our current biennial budget cycle in June 2015, 
the projects we have progress or completed will have expended about 
$175 million of the original $200 million water supply development 
account.
    However, on-the-ground efforts to address the serious water 
resource and aquatic resource problems of the Yakima River basin are 
just being initiated. The Yakima River basin is an approximately 6,000 
square mile drainage basin in south central Washington. It supports a 
population of about 360,000 people and is home to the Yakama Nation. 
The Yakima River basin contributes over $3 billion annually to the 
agricultural economy of the State of Washington. Yakima County ranks 
12th nationally in the total value of agricultural products sold. 
Yakima County ranks first nationally, in apple, mint, winter pears, and 
hop production. The Yakima Basin exports around $1.8 billion in farm 
products through the ports of Seattle and Tacoma annually. 
Historically, the basin was the second largest producer of salmon and 
steelhead runs in the entire Columbia River system.
    Since 1905, when the State granted rights for all unappropriated 
surface water in the basin to Reclamation, surface water flows in the 
basin have been managed by Reclamation. Reclamation operates five 
existing reservoirs with a total capacity of about 1,000,000 acre-feet, 
which is about one-third of the annual runoff in the basin. The basin 
is heavily dependent on east-slope Cascade Range snowpack to supply 
water to the semi-arid lower basin during the summer months.
    Water users in the basin are a combination of the pre-1905, senior 
surface water right holders, direct customers in of Reclamation served 
water under Reclamation's 1905 water right, a small number of post-
1905, junior surface water right holders, and ground water right 
holders, mostly with post-1905 priority dates.
    The surface water resources of the basin are overappropriated, and 
a State court adjudication of those water rights has been ongoing since 
1977. The State closed the basin to additional ground water rights in 
the 1990s. Recently, the U.S. Geological Survey concluded that the 
basin's ground water aquifers are in continuity with surface waters. 
Thus, rights for ground water, on which most of the basin's 
municipalities depend, are likely to be determined to junior to the 
1905 water rights of the Bureau of Reclamation.
    Frequent droughts over the past several decades demonstrated the 
vulnerability of the basins water supplies. During droughts in 2001 and 
2005, the irrigation districts served by Reclamation, referred to as 
the ``proratable'' irrigation districts, received only about 40 percent 
of their water supply.
    Instream flows and aquatic resources of the basin have also 
suffered. Out-of-basin and in-basin factors, including diminished 
stream flows and lack of fish passage at existing reservoirs, have 
combined to drastically reduce the numbers of salmon and steelhead. 
Runs of salmon and steelhead the once numbered at least 800,000 fish 
declined to about 8,000 fish by the 1980s. Sockeye, coho, and summer 
Chinook salmon have all been extirpated; although efforts are underway, 
led by the Yakama Nation, to reintroduce new stocks of those species. 
The basin's steelhead and bull trout are Endangered Species Act listed 
threatened species.
    Water supply shortages coupled with severe reductions or 
elimination of major salmon and steelhead runs makes the need for 
drastic improvements to water resources and aquatic resources of the 
Yakima River basin imperative. Thus, since 2009, the Office of Columbia 
River and Reclamation have been collaborating with the Yakama Nation 
and basin stakeholders to formulate a comprehensive strategy to address 
critical resource needs. That collaboration focused on expanding the 
work of the 1979 Federal Yakima River Basin Water Enhancement Project 
[YRBWEP] and the 1994 Congressional Amendments that created Phase 2 of 
YRBWEP. That strategy took shape by mid-2011 when consensus was reached 
on the on Yakima River Basin Integrated Water Resource Management Plan 
(Integrated Plan). The Integrated Plan is being proposed as Phase 3 of 
YRBWEP. Development of the Integrated Plan was facilitated by 
additional Federal support resulting from the Yakima River basin being 
selected as the recipient of Reclamation's first Basin Study grant.
    The Integrated Plan proposes a major ecological restoration of the 
Yakima River basin. In addition to providing for fish passage at all 
major in basin reservoirs to open high basin spawning and rearing areas 
that have been blocked for a century and to providing substantial 
mainstem and tributary habitat enhancements, the Integrated Plan will 
involves restoration of substantial portions of the upper watershed for 
both terrestrial and aquatic species. It provides for operational 
modifications to improve operational efficiency and flexibility.
    The Integrated Plan also calls for substantial improvements in 
water supply. As noted previously, about one-half of eastern 
Washington's out-of-stream water needs and one-third of our unmet 
instream flow needs are in the Yakima River basin. The water supply 
improvements will come in several different forms. Efficiency of 
existing use of water will be improved through reducing barriers to the 
transfer of water between willing buyers and willing sellers. Municipal 
and agricultural conservation efforts will be enhanced. For example, 
the plan calls for supplementing the 72,000 acre-feet of conserved 
irrigation water achieved as part of the 1994 YRBWEP Phase 2 efforts 
with another 170,000 acre-feet of conservation savings. Studies are 
also underway to better understand the potential role of aquifer 
storage in providing passive recharge to the mainstem of the Yakima 
River in targeted locations.
    However, the objectives of the Integrated Plan cannot be met 
without significant improvements in surface water storage. The Office 
of Columbia River and Reclamation determined based on an analysis of 
water supply needs that development of additional 450,000 acre-feet of 
additional water storage capacity, in the form of modified and new 
surface storage facilities, will be needed to provide:

    <bullet> Drought relief to existing irrigators in the basin;
    <bullet> Secure water supplies for our municipalities with junior 
            water rights and to meet their future needs; and
    <bullet> Adequate water for fish outmigration and pulse flows in 
            all years.

    In addition, climate modeling by the University of Washington 
Climate Impacts Group and the Federal River Management Joint Operating 
Committee predict that substantial reductions in snow pack depth and 
duration are likely as we move toward mid-century. The Integrated Plan 
recognizes that the only effective means of offsetting snowpack 
reductions in the Yakima River basin are improving flood plain aquifer 
storage potential and increasing surface storage capacity. Sensitivity 
analysis modeling of the Integrated Plan indicate that at buildout, 
about 500,000 acre-feet more water will be available under drought 
conditions by mid-century with the Integrated Plan than without.
    There are no other sources of water supply available besides 
storage capable of meeting the needs of the basin. Conservation is 
often suggested as a substitute for water storage; however, there are 
severe limitations to the role of conservation as a source of water 
supply. As noted previously, the Integrated Plan proposes to accomplish 
another 170,000 acre-feet of irrigation conservation savings. Those 
savings will provide valuable flow improvements in targeted stream 
reach where those flow benefits will improve conditions for fish. 
However, it must be remembered that most conservation efforts focus on 
reducing the amount of water that leaks from conveyance systems (for 
example, canals or ditches) or from irrigation practices that result in 
more water being applied than is needed by the crops being grown. The 
leaked water returns through runoff or through ground water to the 
river at a point downstream of where it was diverted. Along the Yakima 
River mainstem, return flows rejoin the river within days or a few 
weeks after diversion and contribute to downstream river flows. If 
through conservation measures, the leakage or overapplication of water 
is reduced or eliminated, the amount of water diverted can be reduced. 
Those diversions savings add more flow to the river, but only between 
the point of diversion and the point at which return flows rejoined the 
river. Below the return flow point, there is no residual benefit to the 
river. If the conserved water described in the preceding example was 
used for some out-of-stream purpose, flow below the return flow point 
would be permanently diminished. The surest way to dry up the river 
would be to employ such a practice on a widespread basis.
    Additionally, the amount of conservation savings that could be 
captured through conservation is greatly reduced under drought 
conditions, because, simply put, you can't conserve water that doesn't 
exist. The Office of Columbia River and Reclamation estimate that of 
the 170,000 acre-feet of average year conservation called for in the 
Integrated Plan, only about 50,000 acre-feet of savings would be 
captured in drought years like 2001 and 2005.
    Earlier this year, the Washington State Legislature passed and 
Governor Inslee signed into law legislation authorizing the Washington 
State Department of Ecology to begin implementation of the Integrated 
Plan. At the Governor's request, the legislature also provided a 
substantial capital budget appropriation to initiate implementation. 
The State of Washington welcomes a continued Federal partnership in 
this effort.
                                 ______
                                 
    Mr. McClintock. Thank you very much for your testimony.
    The Chair is now pleased to introduce Ms. Laura Ziemer, 
Senior Counsel and Water Policy Advisor for Trout Unlimited, 
based in Bozeman, Montana, to testify.
    Welcome.

 STATEMENT OF LAURA S. ZIEMER, SENIOR COUNSEL AND WATER POLICY 
                    ADVISOR, TROUT UNLIMITED

    Ms. Ziemer. Good afternoon, Mr. Chairman, Ranking Member 
Napolitano, members of the committee.
    Thank you for the invitation to testify today on behalf of 
Trout Unlimited and its 150,000 members from Maine to Alaska 
who are working to restore local trout streams.
    I myself work and live in Montana and have experienced 
firsthand the devastation of prolonged drought, and that is why 
I have dedicated the last 15 years of my professional life to 
finding innovative solutions to water scarcity. In my 
experience on the ground throughout the West, diverse partners 
are coming together to find the innovative solutions to water 
scarcity at a variety of scales by rethinking old 
infrastructure and repairing natural systems.
    Trout Unlimited is not opposed to new storage. We believe 
it has a role to play in modern water management, and to this 
end I have learned a couple of things over walking irrigation 
districts for the last 15 years that I would like to share 
today.
    First, I have learned that the largest and cheapest 
reservoir of new storage and new water lies in the miles of 
irrigation canals and laterals dug by shovel and plow over 100 
years ago. For example, my colleagues in Eastern Washington 
have worked with the Wenatchee Water Users to upgrade 
irrigation works to now the most advanced system in the State. 
By doing so, they returned almost 8,000 acre-feet of new water 
to the flow limited Wenatchee River for imperiled spring 
Chinook salmon, and not only that but helped secure the city of 
Wenatchee's municipal water supply.
    Another example comes from the southwest corner of Wyoming. 
There to use partnership with Julian land and livestock to 
upgrade a flood irrigation system to gated pipe not only 
increased hay production, but also improved stream conditions 
for Bonneville cutthroat trout.
    Finally, I have personally worked with large irrigation 
districts across Montana's Rocky Mountain front. There I have 
worked with districts that have canals that hold more water 
than the rivers they are diverting from, and in there we found 
tremendous water savings by making those canals more efficient. 
In the one project that we have just finished implementation 
on, we returned 5,000 acre-feet of water, new water, saved 
water back to the Sun River while at the same time making that 
delivery system more secure and ensuring more reliability of 
irrigation water.
    In that same context we looked very carefully at both new 
storage in the basic as well as expanding existing storage, but 
the infrastructure projects were 21 times cheaper than either 
the new storage or expanded storage. So those are the ones that 
we proceeded with.
    And Congress can encourage these kinds of cooperative 
solutions by funding farm bill and Bureau Reclamation 
competitive grant programs.
    Second, I have learned it can be a lot cheaper, faster, and 
smarter to expand on existing reservoirs than build a new one, 
and new storage can be used in a variety of ways to optimize 
water supply. For example, the Chatfield Reservoir in Colorado, 
we are looking at that for reallocating storage water to new 
supply for both municipalities and irrigation. That is the kind 
of solution that does not require new concrete but just new 
thinking.
    Finally, I have learned over the years that the best 
solutions are usually not the easiest ones. The innovative work 
I have done with Trout Unlimited has involved a lot of 
listening over the time to what other people need water for.
    New storage likewise is best planned and carried out in a 
multi-stakeholder basic study process and imbeds storage into a 
multi-pronged approach for addressing water scarcity, and 
certainly the Yakima River Basin plan that my colleague Mr. 
Sandison just described is an excellent example.
    When we invest in the river basin's natural infrastructure, 
it becomes a highly cost effective way to buffer the effects of 
both floods and drought. The Yakima Plan recognizes this and 
proposes an ambitious plan of headwater protection, flood plain 
restoration and tributary flow enhancement. Trout Unlimited has 
found that over the years these are the kinds of solutions that 
allow communities, fish, and farmers to thrive in an arid land.
    I hope my testimony today has been helpful in charting a 
road map to water security in the West, and I thank you for 
your invitation to testify.
    [The prepared statement of Ms. Ziemer follows:]
Prepared Statement of Laura S. Ziemer, Senior Counsel and Water Policy 
               Advisor, Trout Unlimited, Bozeman, Montana
    Dear Chairman McClintock and Ranking Member Napolitano,
    Thank you for the invitation to testify today on behalf of Trout 
Unlimited [TU] and its 150,000 members nationwide. I have had the 
privilege to work for many years with TU's volunteers to restore local 
streams, and engage young people in TU's work to conserve, protect and 
restore our Nation's watersheds. I live and work in Montana, and have 
experienced first-hand the devastation of prolonged drought in an 
already-arid land.
    Westerners experience water scarcity at a number of different 
levels. Extended drought creates problems for individual rancher and 
farm operations struggling to find enough river flows to irrigate 
crops, and for the fish that find that their habitats have heated up, 
shrunk, or just plain dried up. Swings and cycles in regional weather 
patterns create basin-level scarcity that affects not only irrigation 
districts, but also municipalities worried about meeting water demands. 
At the largest scale, whole sections of the West can experience such 
dry conditions that fires compound the problem of not enough water to 
go around, and whole assemblages of aquatic species are pushed to the 
brink of extinction. In the past year alone, blue-ribbon trout rivers 
in Montana have been closed to fishing due to low river flows; drought 
has continued more years than not in the Colorado River basin since 
1999, causing a razor-thin margin between water supplies and demand 
within the basin; and, in August the Bureau of Reclamation announced 
that it would cut releases from Lake Powell by 750,000 acre feet next 
year--a first since the construction of Glen Canyon Dam created Lake 
Powell over 40 years ago.
    The seriousness and scale of these problems is why I've dedicated 
the last 15 years of my professional life to finding collaborative 
solutions to water scarcity in the West. I've pioneered collaborative 
approaches to creating new water supplies with Montana ranchers, 
created working architecture for drought response plans that operate at 
the basin scale, and assembled diverse coalitions of interests to come 
together around innovative changes to water management across multiple, 
large river basins. Although these approaches vary in scale and focus, 
the one thing they have in common is building the trust to apply 
creativity to difficult, long-standing problems born of too many 
demands and too little water in arid lands. I have learned a couple of 
things over the past 15 years of walking irrigation ditches and 
listening to ranchers' needs that I would like to share today.
    My message is simple: On the ground throughout the West partners 
are coming together to find innovative solutions to water scarcity 
challenges at a variety of scales. Congress should encourage 
cooperative stakeholder processes to solve storage challenges, and 
provide adequate funding for cost-effective programs that catalyze 
cooperative solutions, such as key Farm Bill programs, and the Bureau 
of Reclamation's competitive grant and basin study programs.
1. upgrading irrigation infrastructure: a cost-effective source of new 
                                 supply
    First, I've learned that the largest and cheapest reservoir of new 
water lies in the miles of irrigation ditches and laterals dug with 
shovels and plows over 100 years ago. TU has worked with individual 
ranchers, farmers, and large irrigation districts to design, fund, and 
upgrade irrigation infrastructure to salvage this new water supply and 
apply it to multiple uses: irrigation, municipal, and restoration of 
river flows. TU has worked in partnership with ranchers and farmers 
across eastern Washington's Methow, Wenatchee, Yakima, Entiat, and 
Okanogan river basins, in Idaho's Salmon, Little Lost, and South Fork 
Snake river basins, Utah's Bear River, Colorado's Gunnison River basin, 
and in Wyoming's Bear, Big Horn, Green, North Platte, Snake, and Wind 
river basins. TU has also worked with California's wine growers to 
improve their irrigation practices while improving stream flows. 
Personally, I've worked with individual ranchers across Montana's upper 
Missouri, Yellowstone, and Clark Fork river basins on dewatered 
tributaries to upgrade headgates, convert long, leaky ditches to pipes, 
and replace flood irrigation with pivots. I've also worked with large 
irrigation districts on the Rocky Mountain Front to line canals holding 
more water than the river from which they're diverting, in order to 
turn some of that water back to the river--the Sun River.
    Montana's Sun River Irrigation Infrastructure Upgrade. On the Sun 
River, the Bureau of Reclamation's WaterSmart competitive grant program 
helped cost-share these large-scale infrastructure improvements. This 
program is an excellent example of successfully getting Federal dollars 
to the ground to solve water scarcity conflicts in a cost-effective 
way. Prior to embarking on the WaterSmart projects, those of us working 
collaboratively in the Sun River basin conducted a multi-year, 
comprehensive inventory of potential new sources of water to make 
irrigation supplies more secure and provide instream flow benefits to 
the chronically dewatered Sun River. The Sun River flows 70 miles 
across Montana's Rocky Mountain Front to the Sun's confluence with the 
Missouri River near the city of Great Falls, and irrigates 117,700 
acres. The Sun River supplies two irrigation districts serving hundreds 
of water users and the Broken O Ranch--the largest irrigated ground 
under a single ranch in Montana (17,000 irrigated acres). We 
investigated: new storage, adding storage capacity to existing 
Reclamation reservoirs, pump-back systems, lining canals, converting 
from flood to pivot irrigation, and replacing aging siphons and turn-
outs. For each of these approaches, we conducted a preliminary 
feasibility review and cost estimate, and after this initial screening, 
narrowed the focus down to 14 alternatives for a more detailed 
feasibility analysis and cost comparison.
    The projects emerging from this comprehensive, comparative analysis 
ranged from adding capacity to an existing storage project to upgrading 
irrigation water conveyance systems. New storage options did not pass 
the initial feasibility screening based on their high cost per acre-
foot of water. The most cost-effective storage option analyzed in depth 
was adding 26,000 acre-feet to the existing Pishkun Reservoir. This had 
an estimated cost of $29 million, providing new water supply at $1,115/
acre-foot. On the other hand, one of the conveyance system projects 
that we ultimately pursued with Reclamation's WaterSmart funding 
converted 4,860 feet of leaky ditch to PVC pipe, producing 4,158 acre-
feet of water for a project cost of $222,367. This provided new water 
supply at $53/acre-foot (21 times cheaper than adding storage capacity 
to Reclamation's Pishkun Reservoir). Three more infrastructure projects 
are in various phases of development and construction that will provide 
even more water savings.
    Washington's Wenatchee River Irrigation Upgrade. It was about 1866 
when the Pioneer water users first began diverting water from eastern 
Washington's Wenatchee River--the Civil War had just ended, and the 
West was opening up. Pioneer services 107 water users on over 375 
irrigated acres. TU worked with Pioneer to change their point of 
diversion from the flow-limited Wenatchee River to the Columbia River, 
thereby protecting over 38 cubic feet per second [cfs] in the Wenatchee 
River, improving habitat for imperiled spring Chinook, steelhead and 
bull trout. Pioneer Water Users benefited by adopting the most 
sophisticated irrigation system in Washington State that will last 
through the next century: the whole system is managed by a ``brain'' 
that dictates how the pressurized system rotates water use among five 
pumps, which manages use from 10 gpm to 3,000 gpm. The instream benefit 
to the Wenatchee is complemented in the Columbia by the fact that the 
system is based on demand. Withdrawal from the Columbia River only 
occurs when and at the volume that water is needed by the agricultural 
users, creating additional water savings. This collaboration between TU 
and Pioneer also increased the water security for the town of Wenatchee 
by transferring saved water to their municipal supply. Although not a 
simple project--17 separate permits were obtained and 12 funders 
contributed to the project--its $3.4 million total cost for 7,823.5 
acre-feet provides municipal, irrigation, and habitat benefits for 
imperiled species at $435 per acre-foot of water savings--not to 
mention also creating over 40 jobs during 6 months of construction 
during the recession. This project demonstrates the effectiveness of 
leveraging Bureau of Reclamation funding with State and Federal salmon 
recovery funds, along with county, conservation district, and water 
users' contributions, that were all key to the success of creating 
multiple benefits.
    Wyoming's Rock Creek (Bear River Basin), Infrastructure Upgrade. In 
Wyoming, TU has worked across six river basins with Wyoming ranchers 
and farmers to find ways to improve irrigation infrastructure while 
also creating benefits for wild and native trout. TU's work with 
Wyoming rancher Truman Julian illustrates our approach. In the 
southwest corner of the State, TU and Julian Land and Livestock found 
common ground around upgrading a flood irrigation system to gated pipe. 
This increased the yield on the ranch's grass hay while benefiting 
Bonneville cutthroat trout. The project also included the installation 
of new diversion structures to eliminate annual maintenance 
requirements, improve riparian conditions, and allow upstream fish 
passage throughout the year. The partnership with Julian Land and 
Livestock led to partnerships with other landowners in the drainage. 
Irrigation efficiency projects are now complete on every ranch from 
Rock Creek to the confluence of the Bear River to improve flows and 
habitat conditions for native fish.
    On the ground throughout the West, ranch and conservation partners 
are coming together to find innovative solutions to water scarcity 
challenges that modernize infrastructure, benefit producers, and 
restore fisheries. Congress can help encourage this collaborative work 
by passing a 5 year Farm Bill so that conservation programs like the 
Environmental Quality Incentives Program and the new Regional 
Cooperative Conservation Partnership program, which is included in both 
the House and Senate versions of their Farm bill, will be available to 
irrigators. Please note the attached letter from a diverse group of 
agriculture and conservation groups urging Congress to pass a 5 year 
Farm bill reauthorization. Other programs which Congress should provide 
adequate funding for include the U.S. Fish and Wildlife Service's Fish 
Passage Program so that it can help with irrigation infrastructure 
upgrades that benefit fish and water users. Finally, real, on-the-
ground progress is made through funding the Bureau of Reclamation's 
WaterSmart grants, Cooperative Watershed Management grants, 
Reclamation's funding through Cooperative Agreements, and the Bureau's 
Basin Study programs. These programs support not only individual 
projects, but also multi-faceted, collaborative approaches being 
developed at the basin scale, such as the Yakima River basin process 
described below.
 2. cost-effective new storage in expanding or re-allocating colorado 
                                projects
    TU is not opposed to new storage. New, small-scale storage can 
implement water supply strategies that TU supports, such as water reuse 
and flexible water sharing arrangements between agriculture and 
municipalities. In other cases, new storage projects can be designed 
and operated to deliver multiple benefits--to irrigation, 
municipalities, and to stream flows. Finally, it can be a lot cheaper, 
faster, and smarter to re-allocate or expand an existing reservoir than 
build a new one. In fact, TU, working with other conservation partners, 
have together identified 102,000 acre feet of new, potential water 
supply in Colorado to meet the Front Range's growing water demand, 
across an array of expansions and re-allocations of existing projects, 
as well as other strategies such as water re-use.
    Rio Grande Reservoir. The Rio Grande Reservoir in southern Colorado 
delivers irrigation water to the farmers and ranchers of the San Luis 
Valley Irrigation District. The project is over 100 years old, and the 
State of Colorado has placed it under storage restrictions because the 
structural integrity of the dam is in question. The district is in the 
process of rehabilitating the dam which will allow for increased 
storage in the existing reservoir. Much of the added capacity at the 
Rio Grande Reservoir will serve the purpose of making more reliable 
deliveries to the farmers and ranchers of the San Luis Valley 
Irrigation District. The district, however, is also in discussions with 
the Colorado Division of Parks and Wildlife, TU, and others about the 
possibility of allocating some of that new capacity to meet other 
purposes, namely interstate compact delivery requirements and 
improvement of stream flows in the Rio Grande River. As such, the 
project has the potential to provide multiple benefits, including 
recreational and environmental purposes that are important to TU and 
the local community.
    Windy Gap. For a decade, the Northern Colorado Water Conservancy 
District has proposed to ``firm'' the yield of its existing Windy Gap 
Reservoir by increasing the amount of water the project delivers from 
the Colorado River to the Front Range. TU had opposed the proposal 
because of our serious concerns about its impacts on the already-
stressed Colorado River. Earlier this year, however, after many years 
of discussion, TU and the northern district reached an agreement. Under 
the agreement, the northern district will: curtail diversions as needed 
to avoid high stream temperatures caused by low flows; release water 
from storage as needed to create high spring peaks flows to flush 
sediment on a prescribed schedule; put several million dollars on the 
table to construct a by-pass channel around the Windy Gap Reservoir, 
which currently is a source of whirling disease and dangerously high 
stream temperatures; and, has offered up several million more dollars 
to restore Colorado River habitat. With these conditions implemented, 
TU believes the project will leave the Colorado River healthier than it 
is today. The success of the Windy Gap firming project is its dual 
benefits: an increase in 32,000 acre-feet annual yield of water supply 
and environmental benefits to the Colorado River.
    Chatfield Reservoir. On Colorado's South Platte River flowing north 
through Denver, TU has weighed in as supportive in concept of the Army 
Corps of Engineers' plan to re-allocate 26,000 acre-feet of storage 
water in the Chatfield Reservoir from flood-control to provide 8,000 
acre-feet of annual yield for irrigation and municipalities. Although 
TU has concerns that the currently proposed operation of the new 
capacity could deplete flows downstream, thus damaging the health of 
the urban reach of the South Platte River, TU is working with project 
proponents and regulators to address these concerns. Although still in 
process, the Chatfield Reservoir re-allocation is an example of a water 
supply solution that doesn't require new concrete, just new thinking.
3. multi-stake holder, basin-study collaborative planning produces the 
                     best proposals for new storage
    Finally, I've learned over the years that the best solutions are 
usually not the easiest ones. The innovative work I've done with TU has 
involved a lot of listening to what other people need water for. New 
storage, likewise, is best planned and carried out in a multi-
stakeholder, basin-study process that considers a variety of 
alternatives, looks carefully at hydrology and future water supply 
forecasts, and embeds storage into a multi-pronged approach for 
addressing water scarcity. The Yakima River basin study and resulting 
collaborative plan, completed as one of the Bureau of Reclamation's 
Basin Studies, is one example of this process. The Yakima plan 
recommends new storage as one solution among a range of other 
approaches.
    Yakima River Basin Plan. In fact, the Yakima River Basin Integrated 
Water Resource Management Plan has seven distinct elements, all 
designed to allow communities, fish, and farming to thrive in an arid 
land. The Plan's seven different approaches are: (1) open fish passage 
at six existing dams; (2) structural and operation changes to existing 
dams to add storage capacity, increase water use efficiency, and 
improve salmon habitat; (3) increase new surface water storage; (4) 
groundwater recharge and storage; (5) investment in irrigation 
efficiencies and water conservation; (6) promote water transfers 
through water markets and water banks; and, (7) habitat enhancement and 
watershed protection through headwaters habitat acquisition, floodplain 
restoration, and other tributary improvements. This suite of 
alternatives to draw from in moving forward with Plan implementation 
underscores that no one, single approach can address water scarcity in 
the Yakima basin. Rather, it is the multiplicity of approaches--from 
new surface storage to investing in the basin's ``green and blue'' 
infrastructure--that provides resiliency to water scarcity in the 
basin.
    Climate Change Will Bring New Challenges to the West's Water 
Supply. The strongest expression of climate change predicted for the 
West will be through water. This makes the kind of comprehensive, 
collaborative planning process exemplified by the Yakima basin 
especially important. The only thing we know for sure about the West 
and climate change is that the weather is going to get more 
unpredictable. With less snow, more rain, and more frequent droughts 
and storms predicted, if you plan on building a bigger bathtub, you 
want to know that you'll be able to fill it, given predicted changes in 
precipitation. In addition, Yakima's proposed investments in floodplain 
restoration, headwaters habitat preservation, and tributary restoration 
mean that the basin will be more resilient to both droughts and storms, 
able to soak up high storm flows while slowly releasing water during a 
drought. A multi-stakeholder, basin-study process looking at a whole 
range of alternatives stacks the deck in favor of coming up with 
solutions to water scarcity that will be more resilient to predicted 
climate change impacts. The approach taken in the Yakima River basin 
plan to pursue seven distinct pathways toward water security means that 
agriculture, fisheries, and communities will all be more resilient to 
the impacts of climate change, and better prepared to adapt to the 
changes it brings.
    Hydropower Also Faces Challenges and Opportunities from Climate 
Change. Just as with storage facilities, changes to timing and 
magnitude of streamflow will have an impact on hydro operations and in 
the cost-benefit calculation for new hydro development. The benefit of 
adding hydro at existing projects is that it can and should help to 
provide a revenue stream for re-investment in project upgrades and 
enhancements to aquatic ecosystem functioning. Such investments will 
help keep hydro production viable even in a changing climate. A roadmap 
for increasing hydropower supplies should focus first on existing 
infrastructure. This focus would prioritize power gains through 
efficiency improvements--improvement and modernization of existing 
resources and equipment--and adding or expanding production at 
existing, well-maintained infrastructure, like Federal storage 
facilities. A good pathway for such work is contained in section 2009 
of the Senate Water Resources Development bill, S. 601, which would 
authorize and promote development of hydropower at existing Army Corps 
facilities where no hydropower now exists.
    In addition to adding hydro to existing Federal storage dams, 
opportunity also exists to expand hydropower development in irrigation 
delivery systems, where water is already in motion for another 
important use. This type of energy development has the potential to be 
particularly beneficial for rural agricultural communities as in-
conduit energy development can bring in rural, dispersed sources of 
power to irrigation districts and water users whose power needs are 
often far from the grid. That is why we were pleased to work with 
Representative Tipton and this committee to assist with passage of H.R. 
678, Mr. Tipton's small hydro bill.
    Congress can help by supporting multi-use authorizations at Federal 
facilities. Such action would add power production and fish and 
wildlife as authorized purposes consistent with existing and primary 
project purposes. This would enable flexible management and allow for 
more creative solutions. Hydropower is a perfect addition to the 
discussion of water storage and supply--because anywhere water is 
moving, there is opportunity for power generation. The challenge is for 
hydro to remain an incidental benefit, not a primary driver, of out-of-
river water use. Hydro additions to water delivery infrastructure can 
be used to help fund project improvements and aquatic restoration needs 
at the point of diversion. Just as new storage is best achieved in the 
context of a multi-stakeholder, collaborative, basin-scale approach, 
hydro is most successful when analyzed at the system level and power 
benefits are balanced against the cost of providing for multiple uses.
    I'd like to close by describing a recent experience from Bozeman, 
Montana--my hometown. Our city, while less than 50,000 people, has 
nevertheless experienced some of the highest population growth rates in 
the entire country in the last decade--in some years growing at an 
astonishing 28 percent. Faced with a predicted water supply gap, the 
city engineers began moving forward with a large dam proposal in our 
municipal watershed. City leaders wisely decided to initiate a multi-
stakeholder, long-range planning process before committing to the dam. 
As a participant in the process, we looked at a whole range of 
alternatives that were consistent with community values and 
preservation of important agricultural lands within our mountain 
valley. What we found was that on a 30-to-50-year planning horizon, 
there are a whole range of smaller, scalable water supply alternatives 
that were cheaper to bring on line than one big investment in new 
storage.
                             4. conclusion
    While the magnitude, variety and scale of these water scarcity 
challenges are daunting, I remain both optimistic and inspired that we 
can find solutions that work. Every time I work with a Montana rancher 
who finds a new way to deliver water to his crops that will also leave 
a stream healthier, I am inspired by those who are true stewards of the 
land. As you will often hear them say, we are only here for a little 
while, but the land and the rivers remain. It is our challenge to work 
with the West's rivers and the abundance of life that they provide, so 
that they in turn can continue to provide for future generations.
    Thank you again for the invitation to testify on Trout Unlimited's 
experience regarding the need for new surface storage.
                                 ______
                                 
    Mr. McClintock. Thank you very much.
    And the Chair is now pleased to recognize Mr. Valadao to 
introduce our final witness.
    Mr. Valadao. Thank you, Mr. Chair.
    It's my distinct pleasure to introduce a good friend of 
mine, Tom Barcellos. I got to know Tom quite a few years ago as 
my counterpart at Land O' Lakes and another dairy farmer.
    Tom is an interesting person because he is a farmer in the 
district in the Central Valley, but he was actually named in 
2006 as a conservation tillage farmer Innovator of the Year by 
University of California and the USDA Natural Resources 
Conservation Service, Conservation Tillage Work Group, and he 
has been a leader in our valley and an innovator with many 
different ways to conserve water and still grow food for the 
world.
    So thank you, Tom Barcellos.

    STATEMENT OF TOM BARCELLOS, DAIRY FARMER, PORTERVILLE, 
                           CALIFORNIA

    Mr. Barcellos. Thank you, Congressman.
    Chairman McClintock, Ranking Member Napolitano, and members 
of the subcommittee, thank you for the opportunity to appear 
before you today.
    My name is Tom Barcellos, and I am a family dairy farmer 
from Tipton, California on the east side of the San Joaquin 
Valley. I serve on the board of directors of Lower Tule River 
Irrigation District, which is a member of the Family Farm 
Alliance. I also represent both of those organizations here 
today.
    Like many water users represented by the Family Farm 
Alliance, I rely upon a combination of surface and groundwater 
supplies managed through a variety of local, State, and Federal 
arrangements. Like me, many family farms, as well as the 
communities that they are intertwined with, owe their existence 
in large part to the flood control safety and certainty 
provided by water stored behind dams.
    Nowhere is the uncertainty of water supplies greater than 
in California's San Joaquin Valley. We faced incredibly complex 
Federal regulatory structure, the very expensive and lengthy 
processes we face to make obtaining and sustaining water 
supplies increasingly difficult on both agricultural and 
municipal users. For the farmer, the current water allocation 
and reallocation schemes offer us a sense of disillusionment 
and economic uncertainty.
    Severe water shortages caused by the combination of Federal 
fisheries restrictions and drought on water supplies to the 
western side of the valley forced hundreds of thousands of 
acres of farmland to be fallowed in 2009 and beyond, costing 
Central Valley agriculture nearly $1 billion in lost income and 
more than 20,000 lost jobs. In 2009 also, the Central Valley 
Project received only 10 percent of the water they contracted 
for, the lowest allocation in the history of the project.
    This year, 20 percent; next year, these water users face 
zero allocation at this point. Implementation of Federal laws, 
such as the ESA, is the primary reason for this grim scenario.
    Expanded storage in California would be hugely beneficial 
right now. The Family Farm Alliance in 2005 launched a project 
that pulled together a master data base of potential water 
supply enhancement projects from throughout the West. That 
effort showed that there are now feasible studies on new 
surface storage projects in the Central Valley and elsewhere.
    That same year the Bureau of Reclamation identified nearly 
1,000 potential hydroelectric and water supply projects in the 
Western United States that had been studies but not 
constructed. Water resources are available to be developed.
    Demand management is often seen as a solution to water 
supply issues. For example, between 2003 and 2010, San Joaquin 
Valley farmers invested almost $2.2 billion to upgrade 
irrigation systems on over 1.8 million acres of farmland. Those 
investments helped improve water use efficiency and food 
production and helped fuel the rural economy at a time when 
water supply cuts were increasing unemployment. Although 
production was maintained through efficiencies, groundwater 
levels suffered for the lack of recharge supplies.
    Little progress has been made on the supply management end 
of things. While development has occurred on conjunctive 
management and groundwater banking projects, development of new 
surface storage projects have virtually ground to a halt in the 
past 30 years, especially in areas where any sort of Federal 
nexus exists for proposed projects. Farmers will continue to do 
all they can to save water.
    However, water savings cannot be expanded indefinitely 
without reducing acreage and production. At some point the 
growing water demands of the West, coupled with the omnipresent 
possibility of drought, as we have seen must be met or it will 
be taken from agriculture.
    We cannot continue to downplay or ignore the negative 
implications of reallocating more agricultural water supplies 
to meet the new urban energy and environmental water demands. 
Solutions will require workable policy that emphasizes the 
development of new storage projects. To make that happen, 
existing procedures for developing additional supplies need to 
be revised to make project approval less burdensome.
    The Federal Government really needs to adopt a policy of 
supporting new efforts to enhance water supplies and 
encouraging State and local interests to take the lead in 
formulation of those efforts.
    For example, the Tule River's Success Reservoir Enlargement 
Project is a Corps of Engineers and locally sponsored flood 
control project that involves raising and lengthening the 
existing spillway of Success Dam to increase the storage space 
in Success by 34 percent. The additional storage space of this 
proposed project more than doubles the flood protection for the 
city of Porterville and downstream lands.
    No better example of what new storage capacity provides can 
be seen than in the watershed directly north of where I farm, 
where the Lake Kaweah enlargement terminus dam spillway has 
already demonstrated its effectiveness. The new project has 
raised the level by 21 feet, increasing the storage capacity by 
a third. This project has generated many environmental benefits 
and is a key component in local conjunctive use equation. The 
relatively simple and inexpensive project took over 20 years to 
complete, and that was without any environmental opposition.
    We continue to push for improved water storage and 
conveyance infrastructure to mitigate for water that has been 
reallocated away from agriculture. Without water supply 
liability, irrigated agriculture through a combination of new 
infrastructure and other supply enhancements, efforts and 
demand management, our country's ability to feed and clothe 
itself and with the world will be jeopardized.
    My written testimony expands on details on these topics. 
Thank you for the opportunity to testify before you today.
    [The prepared statement of Mr. Barcellos follows:]
    Prepared Statement of Tom Barcellos, Dairy Farmer, Porterville, 
 California, on Behalf of Barcellos Farms, Lower Tule River Irrigation 
                 District and the Family Farm Alliance
    Chairman McClintock, Ranking Member Napolitano and members of the 
subcommittee:
    Thank you for the opportunity to appear before you to discuss the 
need for new water storage projects and examine regulatory and 
bureaucratic challenges that delay or halt the development of new water 
supply enhancement projects in California's Central Valley and the rest 
of the Western United States. My name is Tom Barcellos, and I am the 
owner of Barcellos Farms and T-Bar Dairy in Tipton, California and a 
partner in White Gold Dairy and LGT Harvesting. My dairy operation and 
custom farming business employs two of my son-in-laws in the family 
operations.
    I serve on the board of directors for the Lower Tule River 
Irrigation District, who I am representing here today. I am also an 
alternate director on the board of the Friant Water Users Authority. 
Both the District and the Authority are members of the Family Farm 
Alliance, who I am also representing at today's hearing.
    The Family Alliance advocates for family farmers, ranchers, 
irrigation districts, and allied industries in 17 Western States. The 
Alliance is focused on one mission--to ensure the availability of 
reliable, affordable irrigation water supplies to western farmers and 
ranchers.
    Many of us in western agriculture have a strong water, soil and 
land conservation ethic. In fact, in 2006, I was named the 2006 
Conservation Tillage Farmer Innovator by the University of California 
and USDA Natural Resources Conservation Service Conservation Tillage 
Workgroup. However, those of us familiar with water management know 
that increased water conservation and efficiency can help, but they are 
only part--a small part--of the solution. And buying and bullying water 
away from farmers isn't the solution either. Meeting the current and 
future water needs of the West will require a thoughtful combination of 
means, not the least of which is the creation of new storage.
    Like many water users represented by the Family Farm Alliance, I 
rely upon a combination of surface and groundwater supplies, managed 
through a variety of local, State, and Federal arrangements. Like me, 
many western family farms and ranches of the semi-arid and arid West--
as well as the communities that they are intertwined with--owe their 
existence, in large part, to the flood control safety and certainty 
provided by water stored and delivered by Bureau of Reclamation 
(Reclamation) and Corps of Engineers (Corps) projects.
    The topic of this oversight hearing is tremendously important and 
immediately relevant to me and other California water users, and to 
farmers, ranchers and rural communities all over the West. I would like 
to start my testimony with an overview of the big-picture challenges 
western farmers and ranchers face as they strive to feed our country 
and the appetite of a rapidly expanding world population. I will 
explain why it is preferable to develop new water infrastructure to 
protect our diminishing farm population over policies that encourage 
competing demands to transfer water away from agriculture. Certainty in 
western water policy is essential to the farmers and ranchers I 
represent, and that is why a suite of conservation, water transfers and 
other demand reduction mechanisms must be balanced with proactive and 
responsible development of new water infrastructure. This testimony 
will point out that typical westerners are strongly supportive of new 
projects, especially if those projects can minimize moving water away 
from farmers and ranchers. And finally, I will conclude with a 
discussion that suggests the proper role for the Federal Government to 
play when it comes to participating in new storage projects in these 
cash-strapped times.
 western family farmers and ranchers support water supply enhancement 
                                projects
    Central Valley farmers and ranchers and others throughout the West 
rely on traditional water and power infrastructure to deliver 
irrigation supplies. Many of us have been advocating for new storage 
for decades, and we have provided specific recommendations to Congress 
and the White House on how to streamline restrictive Federal 
regulations to make these projects happen. Water conservation and water 
transfers are important tools for improving management of increasingly 
scarce water resources. However, these demand-management actions must 
be balanced with supply enhancement measures that provide the proper 
mix of solutions for the varying specific circumstances in the West.
    Supply enhancement should include rehabilitation of existing 
facilities and construction of new infrastructure. Rehabilitation 
measures should focus on maximizing the conservation effort through 
increased delivery efficiencies, construction of re-regulation 
reservoirs to minimize operational waste, and construction of new dams 
and reservoirs in watersheds with inadequate storage capacity to 
increase beneficial use and provide operational flexibility. Additional 
groundwater supplies should also be developed, but in a manner where 
groundwater use falls within the safe yield or recharge parameters of 
the aquifer. Conjunctive management of surface water and groundwater--a 
key component of water management where I live--should be encouraged.
    We know there are opportunities to develop new projects in the 
Central Valley and elsewhere. The Family Farm Alliance in 2005 launched 
a project that pulled together a master data base of potential water 
supply enhancement projects from throughout the West. The Alliance's 
goal was to gather together ideas from around the West and put them 
into one master data base. That effort showed there are some very 
feasible new surface storage projects, in the Central Valley and 
elsewhere. The benefits from these projects include providing certainty 
for rural family farms and ranches, additional flows and habitat for 
fish, and cleaner water and energy. That same year, the Bureau of 
Reclamation submitted a report to Congress that identified nearly 1,000 
potential hydroelectric and water supply projects in the Western United 
States. that have been studied, but not constructed. The 2005 Alliance 
and Reclamation efforts show that, in most areas of the West, water 
resources are available to be developed. Environmentally safe and cost-
effective projects exist. They await the vision and leadership needed 
to move them to implementation.
  the uncertain nature of california's central valley water deliveries
    The increasingly complex Federal regulatory structure, and the 
increasingly expensive and protracted processes which this structure 
encourages, makes obtaining and sustaining water supplies increasingly 
difficult on both agricultural and municipal users alike. For the 
farmer or rancher, the current water allocation and reallocation 
schemes often create economic conditions, a sense of disillusionment 
and resignation, and uncertainty. Nowhere is the uncertainty of water 
supplies greater than where I live, in California's San Joaquin Valley.
    Severe water shortages caused by the combination of Federal 
fisheries restrictions and drought on water supplies to the western 
side of the valley forced hundreds of thousands of farmland to be 
fallowed in 2009. University of California experts estimate that the 
combined effects of these restrictions on the water supply have cost 
Central Valley agriculture nearly $1 billion in lost income and more 
than 20,000 lost jobs. In 2009, water users that depend on the Federal 
Central Valley Project [CVP] received only 10 percent of the water they 
contracted to receive, the lowest allocation in the history of the 
project. Without these Federal restrictions, the allocation would have 
been 30 percent. The U.S. Department of the Interior provided 
allocation of water for south-of-delta CVP agricultural water service 
contractors in 2010 to a whopping 25 percent of their contract. This 
year, that same allocation was 20 percent of their contract. Next year, 
even with average hydrologic conditions this winter, those water users 
face a ZERO allocation, and implementation of Federal laws such as the 
Endangered Species Act and Clean Water Act is a primary reason for this 
grim scenario.
the importance of protecting and enhancing reliable agricultural water 
                                supplies
    Agriculture holds the most senior water rights in the West and is 
considered a likely source of water to meet growing municipal and 
environmental demands. Unfortunately, severing water from agricultural 
land makes the land less productive. Period. Policy makers should be 
wary of putting additional, focused emphasis on agricultural water 
transfers, particularly in the context of growing domestic and global 
food security and scarcity concerns.
    Two years ago, the Global Harvest Initiative [GHI] released its 
Global Agricultural Productivity [GAP] Report, which measures ongoing 
progress in achieving the goal of sustainably doubling agricultural 
output by 2050. For the first time, the GAP Report quantifies the 
difference between the current rate of agricultural productivity growth 
and the pace required to meet future world food needs. The report 
predicts that doubling agricultural output by 2050 requires increasing 
the rate of productivity growth to at least 1.75 percent annually from 
the current 1.4 percent growth rate, a 25 percent annual increase.
    The Family Farm Alliance and the Irrigation Association recently 
completed a white paper that was specifically drafted to be read by 
policymakers seeking to better understand the economic impact of 
western irrigated agriculture. This report stems from an earlier 
effort, prompted in 2012 to address strategic policy questions about 
water resources economics raised by senior staff from the U.S. 
Environmental Protection Agency. The White Paper--which was peer-
reviewed by the Farm Foundatio--summarizes basic economic information 
current to irrigated agriculture and quantifies what many policymakers 
view as a critical indicator of economic significance--irrigated 
agriculture's impact to annual household income in the Western United 
States. The full magnitude of the Irrigated Agriculture Industry's 
contribution to the economy is rarely, if ever, quantified in terms of 
total household income for the western region. Real household income is 
the contribution to actual dollars in the pocket. It takes the form of 
wages, salaries, and products sold, both directly and indirectly.
    According to the Paper, the annual direct household income derived 
from the irrigated agriculture industry--which is made up of direct 
irrigated crop production, agricultural services, and the food 
processing and packaging sectors--is estimated at $64 billion in the 
Western U.S. region. After further analysis of the total direct, 
indirect and deduced impacts, researchers determined the total 
household income impact to be an estimated $156 billion annually (based 
on 2011 commodity prices). The report also clearly shows that the 
affordability of U.S. household food purchases affecting discretionary 
income, over time, have contributed substantially to the national 
economy, since it allows more household income to be devoted to 
consumer goods and services.
    These issues and other growing domestic and global food security 
and scarcity concerns must be considered as Federal water policies are 
developed and implemented. We cannot continue to downplay or ignore the 
negative implications of reallocating more agricultural water supplies 
to meet new urban, energy, and environmental water demands. It is clear 
that greater recognition should be given to western irrigated 
agriculture's direct contribution to the U.S. economy, and that water 
policy actions are integral to the broader economy's well-being. 
America's low-cost access to safe, high-quality food and fiber is 
critically important and is made available in large part by Western 
irrigated agriculture.
    We can find solutions to water conflicts that protect our ability 
to feed ourselves, export food to others, and continue to lead the 
world in agricultural production, all the while finding ways to 
accommodate the water supply needs of continued urban growth, energy 
needs, recreational demands, and environmental requirements. Fair, 
balanced, and long lasting solutions will not come easily. They will 
require visionary leadership and a firm commitment to a sensible, 
workable policy. And that policy must include an emphasis on developing 
new storage projects.
                demand management vs. supply enhancement
    We often see bold general statements of water transfer proponents 
about the potential for agricultural water use efficiency to free up 
water that can be used for in-stream flows. However, those statements 
are usually followed up by a list of the factors that make it a 
difficult proposition. Those include re-use deficiencies when water is 
removed upstream in the system, water rights that protect water users 
from water being taken away if they conserve water, and transactions 
that move water between presumably willing buyers and willing sellers, 
but have the effect of taking land out of production. All of those 
issues are dealt with directly in a report developed by the Center for 
Irrigation Technology [CIT] at Fresno State. The report, ``Agricultural 
Water Use in California: A 2011 Update''4, refutes some long-standing 
beliefs about agricultural water usage and confirms others. The full 
report is available at http://www.californiawater.org. The CIT report 
and others have reached a similar conclusion: the only large potential 
for moving water from agriculture to other uses will come from 
fallowing large swaths of farmland.
    If we don't find a way to restore water supply reliability for 
irrigated agriculture through a combination of new infrastructure, 
other supply enhancement efforts, and demand management--our country's 
ability to feed and clothe itself and the world will be jeopardized.
    Water conservation (i.e. ``demand management'') is often seen as 
the solution to water supply issues. In fact, in the past 15 years, 
tremendous agricultural conservation efforts have been undertaken 
throughout the West, including widespread installation of high 
technology drip irrigation systems in the Central Valley, where I farm. 
On the other hand, relatively little progress has been made on the 
``supply management'' end of things. While development has occurred on 
conjunctive management and groundwater banking projects, development of 
new surface storage projects have virtually ground to a halt in the 
past 30 years, especially if any sort of Federal nexus exists for 
proposed projects.
    Western farmers and ranchers have long taken a progressive approach 
to water management. Farmers are already investing in upgraded 
irrigation systems. For example, between 2003 and 2010 San Joaquin 
Valley farmers invested almost $2.2 billion in upgraded irrigation 
systems on over 1.8 million acres of farmland. Those investments helped 
improve water use efficiency and food production and helped fuel 
portions of the rural economy at a time when water supply cuts were 
increasing unemployment. And, these sorts of efficient farm practices 
have led to increased economic value and production. A report by the 
California Department of Water Resources \1\ shows that the value of 
California farm products doubled during the 40-year period from 1967 
and 2007 while at the same time, applied water decreased by 14 percent. 
Other research by the California Farm Water Coalition showed that the 
volume of farm production between 1967 and 2000 rose approximately 89 
percent with only a 2 percent increase in applied water per acre. These 
indicators support assertions that farmers in general are improving 
water use efficiency in significant ways over time.
---------------------------------------------------------------------------
    \1\ The DWR report is available at: www.farmwater.org/
DWR_Econ_Efficiency.pdf.
---------------------------------------------------------------------------
    While conservation is surely a tool that can assist in overcoming 
water supply problems, it cannot be viewed as the single answer to 
water shortages. For example, conserved water cannot always 
realistically be applied to instream uses, as it will more likely be 
put to beneficial use by the next downstream appropriator or held in 
carryover storage for the following irrigation season. Also, in urban 
areas, further tightening of water conservation measures, in essence, 
``hardens'' those urban demands. Some degree of flexibility must be 
embedded in urban water conservation programs to allow these areas to 
employ more restrictive water conservation measures during drought 
periods. Without having the ability to save water during drought 
periods via drought conservation measures, the resulting hardened 
demand will force urban water managers to more quickly look to secure 
water from other areas; namely, agriculture and the environment. So, 
clearly, mandated or ``one size fits all'' conservation programs are 
doomed to failure in light of the drastically different circumstances 
of water users across the West.
    Farmers and ranchers will continue to do all they can to save 
water. However, water saving cannot be expanded indefinitely without 
reducing acreage in production. At some point, the growing water 
demands of the West--coupled with the omnipresent possibility of 
drought--must be met. The members of the subcommittee must understand 
that in the West, the water needed to meet these demands will either 
come from developing new water supplies . . . or it will be taken from 
agriculture.
                political support for new water projects
    Colorado State University [CSU] in 2009 completed a west-wide (17 
States) survey that found--throughout the West--strong citizen support 
for water going to farmers and also strong support for building new 
water infrastructure. The report provides very interesting findings 
that underscore western householders support for water storage projects 
and irrigation over environmental and recreational water needs in times 
of shortage. Three focus groups were used to develop a multi-faceted 
questionnaire. An Email invitation to an Internet survey yielded 6,250 
municipal household respondents in 17 Western States. Among western 
respondents to the CSU poll, the most popular strategies for meeting 
long-term needs are to build reservoirs and reuse water, whether it is 
on private lawns or public landscapes. The least popular alternative is 
to buy water from farmers. When addressing long-term scarcity, 
respondents preferred reservoir construction and reuse systems over 
other acquisitions and, in particular, are not in favor of water 
transfers from agriculture.
    These findings fly in the face of arguments made by some 
environmental activist groups and editorial boards of certain western 
urban newspapers, who insist that the public shares their view that 
dams are outdated, monstrous aberrations that should be destroyed. The 
findings in this report should further convince our political leaders 
to ignore the naysayers and stand up for farming and new water supply 
enhancement projects.
     appropriate role of the federal government in these endeavors
    Federal water agencies' (like the Bureau of Reclamation) once 
active role in building new dams and reservoirs has diminished 
significantly over the last three decades. Construction of large dams, 
in general, has become virtually impossible in recent decades due to 
new societal environmental priorities, and related passage of numerous 
Federal laws that create litigious uncertainty and tremendous 
regulatory obstacles for proponents of new dams. Given this current 
political reality, the Federal Government should instead adopt a policy 
of supporting new efforts to enhance water supplies and encouraging 
State and local interests to take the lead in the formulation of those 
efforts. Local problems call for local solutions, and local interests 
have shown enormous creativity in designing creative water development 
projects, as I will discuss later in this testimony.
    Even before the advent of the challenging economic times we now 
live in, we witnessed a progressive cutback in Federal water supply 
funding. We understand that those who benefit from new water supply 
infrastructure should help pay for that infrastructure. However, 
policymakers need to understand that, for the most part, new water 
supplies are not being proposed to meet the expanding needs of 
agriculture. On the contrary, we are seeing a move in the opposite 
direction, where agricultural lands are going out of production and 
being lost to expanding urban development. Water that was originally 
established for agriculture and the communities it supports is now 
being reallocated to meet new growing urban and environmental water 
demands. The growing number of urban water users in the West and the 
public interest served through improved environmental water supplies 
should naturally be part of equitable financing schemes.
    The President and Congress will prioritize whatever Federal funds 
are available to meet existing and future needs. As for the rest of the 
capital, it must come either from State and local governments or from 
the private sector. If the Federal Government cannot fund the required 
investments, it should take meaningful steps to provide incentives for 
non-Federal entities to fill the void, and remove barriers to the new 
ways of doing business that will be required. In this time of tight 
budgets and huge overseas spending, the Federal Government must adopt a 
policy of supporting new projects to enhance water supplies while 
encouraging State and local interests to take the lead in the 
implementation of those projects.
   problems with existing regulations and permitting of new projects
    The often slow and cumbersome Federal regulatory process is a major 
obstacle to realization of projects and actions that could enhance 
western water supplies. Here are just a few reasons why Reclamation and 
other Federal agencies (particularly fisheries agencies) need to find 
ways to streamline regulations and permitting requirements:

    <bullet> Planning opportunities and purposes for which a project 
            may be permitted are restricted, which narrows the planning 
            horizon, and makes it impossible to plan for projects with 
            long-term benefits;
    <bullet> The alternatives proposed for assessment by the National 
            Environmental Protection Act regulators are frequently 
            inappropriate, unrealistic, difficult-to-implement, and 
            often in conflict with State law. The permitting process 
            stalls, and costs increase to the project applicant;
    <bullet> Federal regulators take a long time making decisions on 
            projects, and at times they seem unable to even make 
            decisions. As a result, projects are postponed and money is 
            wasted as additional studies and analyses are conducted;
    <bullet> Applicants end up spending tremendous amounts of money for 
            potentially uncertain mitigation;
    <bullet> Rather than doing things concurrently, conflicting agency 
            permit requirements can add time to the project planning 
            and implementation process and increases greatly the 
            potential for last-minute surprises that could endanger the 
            proposal or require significant additional work.

    We pledge to continue our work with Federal agencies and other 
interested parties to build a consensus for improving the regulatory 
process.
                     three general recommendations
    It is clear that the existing procedures for developing additional 
supplies need to be revised to make project approval less burdensome. 
By the time project applicants approach Federal agencies for 
authorization to construct multi-million dollar projects, they have 
already invested extensive resources toward analyzing project 
alternatives to determine which project is best suited to their 
budgetary constraints. However, current procedure dictates that Federal 
agencies formulate another list of project alternatives which the 
applicant must assess, comparing potential impacts with the preferred 
alternative. These alternatives often conflict with State law. 
Opportunities should be explored to expedite this process--perhaps 
through a ``one-stop permitting shop'' approach--and reduce the costs 
to the project applicant.
    Improved and accessible mitigation banking would also help matters 
in some areas. Under such an approach, applicants faced with excessive 
mitigation costs would be allowed to pay a reasonable sum per acre to a 
regional mitigation bank or set aside mitigation lands as a condition 
to implementation of their project. The Federal Government should 
encourage the creation and more widespread use of public and private 
mitigation banks.
    Most water supply entities are willing to make investments to meet 
human and environmental needs, but they need to know up front that the 
Federal Government will honor its part of the bargain. This means that 
the Federal Government should enter into meaningful contracts that 
protect the expectations of the non-Federal parties, and concepts like 
the ``No Surprises Rule'' under the Endangered Species Act must be 
validated and expanded.
           benefits of new storage in the san joaquin valley
    Local and State interests have shown enormous creativity in 
designing creative water development projects. For example, the Tule 
River Success Reservoir Enlargement Project [SREP] is a Corps of 
Engineers flood control project that involves the raising of the 
existing spillway of Success Dam 10 feet and lengthening the spillway 
165 feet to obtain 28,000 acre-feet of additional flood control and 
water conservation storage space. The enlargement project increases the 
storage space in Success Reservoir by 34 percent. The additional 
storage space improves the flood protection for the city of Porterville 
(45,000 population) and the highly developed agricultural lands from a 
return period flood event occurring once in 47 years to a return period 
flood event occurring once in 100 years. In other words, the proposed 
project more than doubles the flood protection for the city of 
Porterville and downstream lands.
    The Preconstruction Engineering and Design (PED) phase of the SREP 
by the Corps of Engineers, at a cost of $2 million, was scheduled to be 
complete in 2003, but remains in progress as of this date. The Congress 
and California State Legislature have appropriated funds for 
construction of this project in the past decade. The local non-Federal 
sponsors, composed of the city of Porterville, the Tule River 
Association, the Tulare Flood Control District, the County of Kings and 
the Tulare Lake Basin Water Storage District, have agreed upon an 
apportionment of the local non-Federal cost share and provide the funds 
as required for the design and construction of the SREP.
    If SREP were in place now, we would have a valuable management tool 
that would better help us address the water resources challenges we 
face in the southern San Joaquin Valley. The conjunctive management of 
surface and groundwater--in its broadest definition, the coordinated 
and combined use of surface water and groundwater to increase the 
available water supply of a region and improve the reliability of that 
supply--is an essential component of water use where I farm. Storage of 
surface water is a vital part of utilizing water conjunctively; you 
cannot manage water conjunctively with groundwater recharge basins, 
alone. In recent years, farmers in the Valley have been forced to do 
more with less water, in large part due to recent reallocations of 
water away from agriculture and toward the perceived needs of fish 
protected by the Endangered Species Act [ESA]. Having the enhanced 
ability to store surplus water derived in wet years for use in dry 
years and those times when environmental demands further restrict our 
available supplies provides additional management flexibility and 
multiple benefits.
    No better example of what new storage capacity provides can be seen 
in the watershed directly north of where I farm, where the Lake Kaweah 
Enlargement/Terminus Dam Spillway has already demonstrated its 
effectiveness. Lake Kaweah was originally created in 1962 with the 
completion of Terminus Dam. Built by the U.S. Army Corp of Engineers in 
cooperation with local sponsors, the main dam is 250 feet high, 2,375 
feet long and was designed to provide a 60-year level of flood 
protection. After tremendous flooding in 1955 wreaked over $20 million 
in flood damage to downstream areas, the cost/benefit ratio of building 
a dam became too great to ignore any longer. The dam was built for 
approximately $24 million. Ever since, Lake Kaweah has been a key to 
the urban and agricultural development that has occurred in the Kaweah 
Basin area. Its three main functions include:

    <bullet> Flood control for over 300,000 citizens and approximately. 
            500,000 acres of land.
    <bullet> Storage that provides irrigation water for much of one the 
            most important agricultural counties in the country.
    <bullet> Improved water conservation options in a basin where the 
            groundwater is severely over-drafted.

    Even though the dam has been extremely beneficial, over 10 
additional flooding events have occurred since 1962, which led to the 
planning and eventual construction of the new Terminus Dam Spillway. 
This construction raised the lake level by 21 feet, increasing the 
storage capacity by about \1/3\ to store a total of 185,600 acre-feet. 
The enlargement project has had a ripple effect, as well. Not only does 
it provide for more flood control and increased water storage, but it 
also has benefited numerous road and bridge improvements in the 
vicinity of the lake. Further, this project has generated many 
environmental benefits, including flora and fauna areas that cover over 
5,700 acres.
    It is very important to note that this project took over 20 years 
to complete, and that was without any environmental opposition. That 
should provide the Subcommittee with a sense of what a huge undertaking 
such a project like this is. What made this project possible was the 
incredible support--via coordination and financial resources--between 
the Federal, State and local entities who participated in this. It is 
difficult to envision a project getting built today without it. Success 
simply will not occur if all three levels--local, State and Federal--do 
not step-up and commit to the long haul.
    Local interests believe that completion of SREP will provide 
similar, measurable benefits to many sectors. We continue to work with 
the Corps of Engineers to collaboratively address dam overtopping, 
seismic and seepage concerns and move this project forward to 
construction.
                               conclusion
    We believe that it is possible to meet the needs of cities and the 
environment in a changing climate without sacrificing western irrigated 
agriculture. To achieve that goal, we must expand the water supply in 
the West. There must be more water stored and available to farms and 
cities. Maintaining the status quo simply isn't sustainable in the face 
of unstoppable population growth, diminishing snow pack, increased 
water consumption to support domestic energy, and increased 
environmental demands. Modern, integrated water storage and 
distribution systems can provide tremendous physical and economic 
flexibility to address climate transformation and population growth. 
However, this flexibility is limited by legal, regulatory, or other 
institutional constraints, which can take longer to address than 
actually constructing the physical infrastructure.
    The organizations I represent want to work with the administration, 
Congress, and other interested parties to build a consensus for 
improving the regulatory process. The real reason we continue to push 
for improved water storage and conveyance infrastructure is not to 
support continued expansion of agricultural water demand (which is NOT 
happening in most places). Instead, we seek to mitigate for the water 
that has been reallocated away from agriculture toward growing urban, 
power, environmental and recreational demands in recent decades. If we 
don't find a way to restore water supply reliability for irrigated 
agriculture through a combination of new infrastructure, other supply 
enhancement efforts, and demand management--our country's ability to 
feed and clothe itself and the world will be jeopardized.
    I close this testimony with a final reference to the dire situation 
that is facing California's San Joaquin Valley now, and the potential 
disaster it faces next year. With normal hydrology this winter, and 
with minimal to moderate water being dedicated to ESA-``protected'' 
fish, water managers are expecting a 0-10 percent water allocation for 
2014 under the existing ESA paradigm that has been imposed on the 
California Bay-Delta. That translates to 300,000-500,000 acres of prime 
Central Valley Project irrigated farm land--the fruit and vegetable 
basket of America--laying fallow next year.
    My fellow farmers and I in the San Joaquin Valley are businessmen, 
and those of us that grow permanent crops must make 30-year decisions 
to plan for land use, plantings, debt, and infrastructure in order to 
help produce food for a global exploding population. The uncertainty to 
their water supply--in large part caused by litigation and Federal 
implementation of antiquated laws--makes long-term planning impossible, 
as they try their best to stay in business. And, remarkably, the water 
cutbacks that have already occurred are not increasing the populations 
of salmon and smelt. Further cutbacks will only serve to harm 
agriculture and other water users. San Joaquin Valley farmers cannot 
afford any more cutbacks in their water deliveries, which will also add 
to unemployment that already has reached Depression-era levels in 
agricultural towns up and down the Valley.
    There is actually considerable discretion in HOW Federal laws like 
the ESA are implemented. Given the significant scientific uncertainty 
with many of these species and the ecosystems in which they reside and 
the failure of the ESA regulators to look at the host of stressors 
affecting them, the agencies need to step back and rethink the 
consequences of their actions. Even though the ESA does not require the 
human consequences of their decisions to be considered, it does not 
prohibit such consideration. We need to clearly determine how much new 
water is needed for new uses, and then find ways to support those uses 
in a sustainable way that doesn't hurt irrigated agriculture. 
Certainly, the proper use of discretion by Federal agencies as they 
administer Federal laws is critical toward this end. However, new 
infrastructure is another such way; the construction of additional 
water supply and conveyance infrastructure may allow more efficient 
management and enable greater cooperation between traditional and non-
traditional water users.
    Western irrigated agriculture is a strategic national resource, and 
the role of the Federal Government in the 21st century should be to 
protect and enhance that resource. Federal agencies have a role to play 
in infrastructure development, but interference with or duplication of 
State authorities must be minimized.
    Thank you for this opportunity to present my testimony today.
                                 ______
                                 
    Mr. McClintock. Great. Thank you for your testimony.
    We will now move to questions by Members, and the Chair 
will defer to the Chairman of the Natural Resources Committee, 
Doc Hastings, for 5 minutes.
    Mr. Hastings. Thank you very much, Mr. Chairman.
    Let me make an observation here. This discussion, I think, 
has been very good on both sides. I was kind of struck by what 
Mr. Costa said earlier. He said in California that the system 
that is supplying 38 million people was built when California 
had about 20 million people, roughly half the population.
    The Yakima River Basin was brought up here as being 
something that is good, and I very much am in support of that 
effort, but the last time there was storage built in the Yakima 
River Basin was 80 years ago. Mr. Sandison mentioned that now 
that system currently supplies about 300,000 people. I 
guarantee you it was probably one-third of that 80 years ago.
    The reason I simply bring this up is that if these systems 
that are I will not say ``antiquated,'' but that old, clearly, 
clearly new technologies had to be used to conserve water to 
still supply a growing population to that point, and I think 
that at some point you have to recognize, especially with the 
growing population and growing demands, that at the end of the 
day you have to have more storage. And that is really what this 
hearing, I think, is all about.
    I mentioned in my opening statement that conservation ought 
to be part of that, but it cannot be the only tool. Now, to 
that end, Mr. Sandison, you have been working obviously in the 
Yakima River with a diverse group of people. In your written 
statement, you did mention that conservation is important, but 
not the only answer.
    So let me just ask this question straightforward. If you do 
not have more storage, what would be the future of the Yakima 
River Basin, given the demands on that system right now?
    Mr. Sandison. Mr. Chairman, we would fall well short of our 
objectives by almost any measure in terms of our ability to 
deal with current shortfalls during droughts, our ability to 
deal with the impacts of climate change going down the road. I 
mean, the quantities of water, particularly for out-of-stream 
use, that we need in the basin can only be developed through 
surface water sources.
    So conservation, as I indicated, plays an extraordinarily 
important role in this, but the primary use of that particular 
tool in the Yakima is for stream reach flow augmentation. So we 
can do a lot in terms of improving stream flow in critical 
segments of the Yakima through conservation, but it is not 
going to supply water that is going to be available to use for 
out-of-stream uses, for agriculture, for cities water.
    Mr. Hastings. One other issue, too, and it has been alluded 
to by several Members, and I think you alluded to it in your 
testimony regarding regulations and what that does to, hurdles, 
if you will, to building these projects. Could you just 
elaborate a bit on some of the potential Federal regulations 
that are in place that at least need to be addressed?
    I am not going to put it necessarily in a negative light, 
but need to be addressed.
    Mr. Sandison. Well, of course, as we move through 
feasibility analysis of any of the major projects that we are 
proposing, we also are subject to the requirements of the 
National Environmental Policy Act, and so we have been doing 
detailed environmental analyses on all the projects we do.
    We, of course, are facing concerns about Endangered Species 
Act nexus or the nexus with the Endangered Species Act, and it 
is a little bit interesting because one of the primary purposes 
that we are trying to do is to de-list steelhead. I mean, we 
have a listed species, a threatened species in the basin. We 
think we can go a long way toward improving the populations.
    So, on the one hand, we are trying to solve an Endangered 
Species Act problem and, on the other hand, we bump up against 
spotted owl issues, and that sort of thing as we look at some 
of the projects.
    So, we have to deal with that. I think the Clean Water Act 
is another area of concern with respect to the surface storage 
proposals because of primarily the difficulty in managing 
temperature impacts associated with surface storage. And there 
are always the Federal trust responsibilities with the tribes 
that we are trying to work with Bureau of Reclamation to 
fulfill.
    So we manage through a very complicated array of not only 
Federal requirements but State requirements as well.
    Mr. Hastings. Let me just make an observation, if I can, 
Mr. Chairman, regarding that. There has been discussion here by 
Members, frankly, on both sides about the regulations, and I am 
not necessarily convinced that the regulations themselves stop 
projects, but what concerns me is the threat of litigation that 
slows down the process. When it slows it down, you have less 
certainty with maybe an investment that needs to be made, 
whether you are a farmer that is going to make an investment 
off an irrigation canal.
    All of those things are not because the regulation has been 
strictly enforced, but it is the threat of litigation that 
slows the whole process down.
    And finally, I just want to mention since Mr. Sandison 
mentioned fish. I want to make this observation. The Columbia 
River system now is experiencing the greatest run of fall 
Chinook ever since we started keeping records going back to 
1938, and there are a number of dams on those rivers that I 
know some critics think ought to be torn down.
    Thank you, Mr. Chairman, for your courtesy.
    Mr. McClintock. It is called the Pacific decadal 
oscillation.
    The Chair recognizes the ranking member for 5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    And to Ms. Ziemer, would you discuss the cost effectiveness 
of multi-stakeholders and the funding most available for multi-
purpose use?
    Ms. Ziemer. Yes, thank you.
    What is interesting in my experience about multi-
stakeholder multi-purpose projects is that they include often a 
substantial or at least a partial investment in the natural 
infrastructure of places, and what is interesting about that 
investment compared to, say, investments in built 
infrastructure is that with built infrastructure, as soon as 
you build them they start to depreciate, but with investments 
in natural infrastructure, those investments are like interest 
bearing accounts, and over time they become stronger, more 
robust, and more valuable.
    So with multi-purpose, multi-benefit projects, those 
investments in the natural system continue to earn interest 
over time and over the period of plan and implementation, and 
they actually enlarge the natural capital.
    Mrs. Napolitano. And can you maybe explain a little bit of 
what role the Endangered Species Act or the National 
Environmental Policy Act has played in the various water 
projects you have worked on?
    Ms. Ziemer. Thank you.
    Yes, I can. In my home State of Montana, we are a rural 
population and a headwater State, and so complying with 
environmental regulations in the ESA has been relatively 
routine. But, of course, we only have a handful of listed 
species. In places like where Mr. Barcellos is from, I think 
those ESA conflicts are much more difficult to handle, and they 
require a lot more time and creative thinking to come to 
resolution on.
    That said, I think that that kind of difficulty in finding 
the way through Endangered Species Act complications 
underscores the need for multi-stakeholer, multi-benefit 
projects so that those kinds of concerns can be addressed in 
both the concept and design stage in order to facilitate 
getting through the regulatory permit stage.
    Mrs. Napolitano. Thank you.
    Mr. Sandison, will the integrated plans for water storage 
projects provide a benefit-cost ratio on a stand-alone basis 
without the conservation and restoration measures?
    Mr. Sandison. Congressman, sort of the basic premise of an 
integrated plan is the whole is greater than the sum of the 
parts, and so a disaggregated analysis of the components of an 
integrated plan typically would fail to capture the synergies 
among the component parts of the program.
    Having said that, I mean, the formal benefit cost analysis 
has not been done on either the entire project or on any of the 
individual storage projects. We have done a first cut at the 
benefit-cost associated with the entire project and sort of a 
back-of-the-envelope associated with some of the larger 
individual parts.
    With respect to a storage reservoir like one we are looking 
at called Wymer Reservoir where about half of the water in the 
reservoir, well, half of the water exactly, half of the water 
in the reservoir would be for providing fish flows and half for 
out-of-stream supply.
    When you look at the fish flow side, it is difficult to, 
when you look at the total benefits to fish associated with the 
integrated plan, to allocate the benefit to the various parts 
of the plan that would aid in salmon recovery. For example, 
what portion of the total fish benefit could you attribute to 
the passage, which allows fish access to cold upper basin 
spawning and rearing grounds?
    How much of it is allocated to the habitat improvements 
along the streams, and how much is allocated to the storage 
which provides the flows needed to allow the fish to move from 
the mouth of the Yakima River to the headwater areas?
    So it is hard to do that, and then on the out-of-stream 
side, we have a project that is not looking at expanding 
irrigated agriculture or really trying to drought-proof a basin 
with an existing agricultural economy. It is harder to capture 
the benefits when you are trying to sort of preserve an economy 
than when you are trying to grow an entirely new one.
    Mrs. Napolitano. My time is running short, sir, but have 
you considered the evaporation rate?
    Mr. Sandison. Yes. That is factored into our demand 
calculations, and we have also factored that into the climate 
change analyses that we have done in sort of sensitivity 
analysis of how the plan will perform under climate change 
conditions.
    Mrs. Napolitano. OK. Because we talk about climate change, 
but we do not talk about the actual loss of above ground 
storage evaporation rates, and I think that should be part of 
the equation when we talk about that.
    Mr. Sandison. Yes, ma'am.
    Mrs. Napolitano. And the fact that NOAA is even stating 
that we may have a dry year in 2014.
    Mr. Sandison. Yes.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. McClintock. Thank you.
    Mr. Shibatani, what percentage of Sacramento runoff is 
utilized for all purposes, including environmental?
    Mr. Shibatani. For the Sacramento region in general?
    Mr. McClintock. Yes.
    Mr. Shibatani. Well, let me just start with the overall 
State perspective, Chairman.
    Mr. McClintock. Well, just quickly. I mean, what percentage 
of our runoff is controlled? What percentage is uncontrolled?
    Mr. Shibatani. There is about 80 percent of total 
precipitation that comes in that is managed for use, and that 
is sort of divided through ag., M&I, environmental flows. The 
rest of the 120 million acre-feet Statewide or 60 percent of 
that available water is just simply not touched by our 
management prescription.
    Mr. McClintock. So that is 120 million acre-feet a year?
    Mr. Shibatani. Statewide, yes.
    Mr. McClintock. Statewide.
    Mr. Shibatani. Eighty million acre-feet.
    Mr. McClintock. Not required for environmental flows.
    Mr. Shibatani. Correct.
    Mr. McClintock. And it simply runs off into the ocean.
    Mr. Shibatani. Well, there are three factors of losses. 
That is water that is not touched by our management 
prescriptions. So it is water that is either lost directly 
through evaporative losses, transferred losses through 
vegetation and soil, or losses to the deep salt sink or runoff 
to the Pacific Ocean. So that is the yield differential.
    Mr. McClintock. What would be required to harness more of 
that surplus water?
    Mr. Shibatani. Well, for the direct evaporative water and 
the transferred water, there is not much you can do. For the 
deep loss into the salt sink there is not much you can do. But 
for the amount of water that actually leaves through 
channelized outflow is what, 15 million acre-feet that leaves 
through the north coast? There is about 7 million acre-feet a 
year that leaves through the Golden Gate. So we have 22 million 
acre-feet of outflow. That is riverine outflow that is going 
out to the ocean as lost runoff.
    And just to add a point, Mr. Chairman, we talk about many 
operators and engineering operators for reservoirs. We talk 
about how much water is actually released through reservoir 
spills. Now, spill water is water in excess of a flood 
encroachment curve. Each reservoir has an encroach curve. 
Folsom happens to have a very, very deep encroachment curve.
    My contention has always been those encroachment curves are 
very, very deep because of the size of the actual----
    Mr. McClintock. If I could cut to the chase, the point is 
that there is a great deal of water that could be stored for 
future use that right now is going into the Pacific Ocean.
    Mr. Shibatani. Absolutely, Mr. Chairman.
    Mr. McClintock. Is there any shortage of geologically 
suitable sites to store that additional water?
    Mr. Shibatani. In watersheds that I have seen, and just to 
give one quick example, think of the American River Watershed 
as a watershed that would have most of its facilities built. We 
did a study with some various partners just a couple of years 
ago called the Joint Benefits Investigation Study. We 
identified 30 sites in the American River Basin Watershed that 
had potential for feasibility studies for new----
    Mr. McClintock. Just in that single watershed, 30 potential 
sites. So suitable geological sites are not in short supply. 
How about financing? We have heard a lot about that.
    Now, I seem to recall in 1960 California undertook the 
State Water Project. It produced 700 miles of canals, 5.7 
million acre-feet of water storage, 10 major storage dams, 11 
secondary dams, nearly 3,000 megawatts of generating capacity, 
and as I recall, that was financed almost exclusively by either 
revenue bonds or self-liquidating general obligation bonds 
repaid by the beneficiaries of these projects in proportion to 
their use; is that correct?
    Mr. Shibatani. Correct.
    Mr. McClintock. Well, should an economically viable water 
project not pay for itself?
    Mr. Shibatani. Absolutely.
    Mr. McClintock. And have the projects that we saw, for 
example, in the State Water Project not done precisely that?
    Mr. Shibatani. I am not sure. If you take the Federal 
projects as an example, there is still large repayment debt on 
the Federal projects, but I think just getting back to one of 
the first points----
    Mr. McClintock. Well, the Federal projects are Federal 
funds funded for these projects. They are being repaid slowly. 
The revenue bonds and self-liquidating general obligation bonds 
for the State Water Project have been paid back on schedule. I 
am not aware of any of those bonds defaulting.
    Mr. Shibatani. Right.
    Mr. McClintock. And when you have a multi-function dam, you 
not only have water sales but power, flood control, and 
recreation; is that correct?
    Mr. Shibatani. Correct, with power sales being the primary 
revenue generating source.
    Mr. McClintock. Now, has dam engineering changed radically 
over the past generation, I mean, just the process of building 
a safe dam?
    Mr. Shibatani. I think dam safety has improved 
considerably. I think dams in this contemporary context have to 
look at more modified components to meet some of the many 
environmental issues associated with damn operations. I know 
that when we did the Folsom modifications 10, 15 years ago, we 
developed the first temperature control device for Folsom. We 
regained the shutters on the power penstock intakes. There are 
a lot of new additions going into new dam facilities these 
days, Chairman, that are quite different than what we had 20, 
30 years ago.
    Mr. McClintock. We will pick up on that point on the second 
round.
    And with that I am pleased to recognize Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chair.
    I would like to start with Mr. Shibatani. I found your 
testimony interesting about all that outflow that escapes the 
dams.
    Mr. Shibatani. Yes, Congressman.
    Mr. Huffman. And that it conceptually could be captured at 
a high elevation storage point. But that outflow actually 
serves some purposes, does it not, when it escapes those dams?
    Mr. Shibatani. It does serve a purpose, yes.
    Mr. Huffman. Well, not just a purpose, but let's talk about 
the many purposes that it serves. I mean, there are entire 
municipalities whose waste water discharge programs would not 
exist if they did not have dilution ratios based on that 
outflow. That is one thing that comes to mind.
    Mr. Shibatani. Correct.
    Mr. Huffman. So you may have some municipalities all over 
the State of California that might object to you shutting down 
their waste water treatment operations.
    Those outflows that some might take as wasted also help 
juvenile salmon out-migrate. They help migrating salmon spawn. 
They provide water quality benefits that are essential to 
maintaining beneficial use. There are riparian users downstream 
from those dams that have priority water rights----
    Mr. Shibatani. Correct.
    Mr. Huffman [continuing]. To use it for irrigation, for any 
number of other purposes. They provide all sorts of system work 
for riparian ecosystems. They mobilize gravels. They do things 
that an ecosystem cannot even function without.
    Have you looked at how much of that water is actually doing 
something important versus how much could sort of 
conceptually--I am sure it is fun to run these hydrological 
exercises--but that you could actually take away into the 
system through these high elevation storage systems.
    Mr. Shibatani. You raise a very good point, Congressman, 
and I think one thing that is unique about California, and you 
are well aware of this, we live in a Mediterranean climate 
where our precipitation occurs 4 months of the year.
    Mr. Huffman. But my question is: have you analyzed how much 
of it is actually available for the conceptual high elevation 
storage that you are talking about today?
    Mr. Shibatani. We have done some preliminary assessments 
just because we know----
    Mr. Huffman. Have you looked at water rights? Have you 
looked at downstream beneficial uses?
    Mr. Shibatani. We have not looked at the actual water right 
tagging.
    Mr. Huffman. Then how can you know how much is actually 
available for this hydrologic exercise?
    Mr. Shibatani. Well, we do it from a mass balance 
perspective first so when we know that precipitation is coming 
in November through March, we look at that volume. We say how 
much are the reservoirs evacuating (a).
    Mr. Huffman. What is the number? You said there is 18 
million in outflow, 18 million acre-feet in outflow. How much 
do you think you could actually capture in upstream?
    Mr. Shibatani. Well, let's see.
    Mr. Huffman. Without impacting other water users.
    Mr. Shibatani. Depending on which waters you are talking 
about, are you talking about the Sacramento-San Joaquin 
watershed going out to Golden Gate?
    Mr. Huffman. OK.
    Mr. Shibatani. OK. There is 7 million acre-feet that goes 
out per year.
    Mr. Huffman. Well, let's talk about that watershed.
    Mr. Shibatani. OK. Sure.
    Mr. Huffman. I was interested that in your testimony you 
did not identify a single river or a single location for these 
facilities. You just testified generically that this 
theoretically is possible to do all of this upstream high 
elevation storage, but on every major tributary of that system, 
you have existing high elevation storage, with the exception of 
Wild and Scenic Rivers. They have their own legal impediment to 
what you are proposing.
    Mr. Shibatani. Correct.
    Mr. Huffman. But have you looked at the other hydro 
projects, for example, in the San Joaquin, the Big Creek Unit 
of Southern California Edison, the many dams that PG&E has 
throughout the Sacramento system?
    If you are going to start putting dams in upstream of them, 
you are impacting their water rights, and you are impacting 
their hydropower operations. Have you gotten blessings from all 
of these different users?
    Because California is a State that is already allocated all 
of its water.
    Mr. Shibatani. It has allocated its water during certain 
times of the year.
    Mr. Huffman. Yes.
    Mr. Shibatani. So if you go to the State Board and say, 
``Is that particular river over-allocated?'' they will say, 
``From April through September, yes; November through March, 
perhaps no.''
    Mr. Huffman. OK.
    Mr. Shibatani. So when you talk about allocation----
    Mr. Huffman. I find it rather significant that you did not 
identify any specific location where the theoretical high 
elevation storage would happen. If you have some specific 
sites, I would love to have you propose them. I do not have 
enough time to go into it, but I would love to see it.
    I want to ask Mr. Barcellos a question because of course it 
was very alarming for me to hear you say that even with a 
normal hydrology next year that you are anticipating a zero 
percent water allocation.
    I am aware of a Westlands Water District, and they have the 
worst allocation. Everyone knows that. Their last notice 
October 17 said that even at below normal year and with minimal 
to moderate delta restrictions, which was your assumption as 
well, therefore casting 25 to 30 percent or up to 35 to 40 
percent allocation.
    So I am confused about your testimony saying that you are 
anticipating zero percent because that is very alarming, and 
then I also want to ask you----
    Mr. Barcellos. I was referring----
    Mr. Huffman. Hold on. I am not finished with my question. I 
want to also ask you to speak----
    Mr. Barcellos. Well, I wanted to answer your question.
    Mr. Huffman [continuing]. To the other water users in the 
area because, of course, the Friant water users right next door 
are going to get a significantly higher allocation. The 
exchange contractors also on that same system are going to get 
between 75 and 100 percent for free.
    So I just want to ask you to maybe speak to those and how 
do you justify telling the committee zero percent when 
Westlands itself is saying much more than that?
    Mr. Barcellos. I was referring to what the anticipated 
allocation was going to be to Westlands. I am in the Friant 
Unit, as I stated earlier. I am on the east side of the valley. 
At this point we do not know what our current allocation is 
going to be. On a normal year, if we can possibly anticipate 50 
percent, I think we are going to be lucky.
    If the exchange contractors do not get the water because we 
have a short year, they can put a call on the water that Friant 
has available. We have technical experts that work that out. I 
work strictly from a board perspective on my farming operation, 
but those numbers change, as you know, from month to month 
depending on what precipitation is in those certain watersheds.
    Mr. Huffman. All right. Well, thank you.
    I just want to suggest that we need to be very careful when 
we make representations like that in a congressional committee, 
and I want to congratulate you for your record high ag. 
production last year in 2012 for the State of California. That 
is impressive.
    Mr. McClintock. And the gentleman's time has expired.
    The Chair now recognizes our one non-Californian, Mr. 
Tipton of Colorado.
    Mr. Tipton. Thank you, Mr. Chairman.
    And, Mr. Shibatani, I think I would like to maybe bring 
this a little bit back to my home State of Colorado.
    Mr. Shibatani. Yes, Congressman.
    Mr. Tipton. We have had some devastating floods, as I am 
sure you are probably aware of earlier just a month or so ago. 
How could some of the high altitude storage benefit in terms of 
being able to protect against some of the flooding like we saw 
in Colorado?
    Mr. Shibatani. I think, Congressman, the primary premise of 
high elevation storage is essentially yield retention during 
the periods of the rainy season, and to the extent that there 
are additional facilities that we can put above existing or 
terminal reservoirs in your State, it is almost a mass balance 
exercise. If you have three 200,000 acre-foot reservoirs, one 
single 1 million acre-foot reservoir, it is all a question of 
attenuating that flood peak that the terminal reservoir 
operators have to then release either through food encroachment 
rules that they are mandated to release.
    So to answer your question, it is a simple question of 
retaining more yield upstream that we can then reserve for not 
only flood control benefits during the time of the rainy 
season, but also serve as a potential commodity asset that but 
for 4 or 5 months that water could be used for a lot of 
beneficial purposes, including water supply, ag., municipal 
deliveries, as well as environmental flows, water quality 
enhancement, and recreational benefits as well.
    So I do not know if I am answering your question, but the 
whole concept is to retain more supplies upstream during time--
--
    Mr. Tipton. Well, I would like to follow up actually on my 
good friend, Mr. Huffman, because in California, Colorado, we 
have seen explosions in growth in population. If we look at the 
entire country, 1960, the Census pointed out we had about 130 
million Americans. Now we are at 300-plus million Americans.
    You just described for me in Colorado we might be able to 
save lives, save property, save a lot of damage to 
infrastructure with high altitude storage.
    Mr. Shibatani. Yes.
    Mr. Tipton. Let's talk a little bit about hydro that he had 
brought up. Would there be an opportunity to be able to have 
hydroelectric power which is going to benefit all of those 
communities as well, and as that drops down--you are the expert 
in this--to be able to reuse that same water to generate 
further hydroelectric power?
    Mr. Shibatani. Absolutely, Congressman, and that is one of 
the primary motivations of high elevation storage. I mean, the 
standard rules are that it rains every year. We cannot 
guarantee how much, but it does rain every year, and the water 
always follows its national oceanic migration. If you put a 
turbine in it, it is converting potential energy to kinetic, 
clean----
    Mr. Tipton. Chairman McClintock brought up that we have a 
lot of projects that are apparently being able to be cash float 
off of this. What do you see as the number one impediment to 
developing some of these projects?
    Mr. Shibatani. These storage projects?
    Mr. Tipton. Yes.
    Mr. Shibatani. I clearly feel today that the overlapping 
and almost redundant layers in certain environmental 
regulations that we are currently operating under are scaring 
away a lot of investors. I know private sector investors that 
are chomping at the bit to underwrite these facility projects. 
The first question they ask me is, ``Have you secured your 
permits?''
    And my answer is always, ``No, not yet.'' They are going to 
wait until all of those permits and approvals are in place 
before they are ready to sign that check, and they will sign 
that check fast and move these infrastructure projects forward.
    So I do not have to leave the impression that I am not 
supportive of these various environmental and very important 
environmental regulatory oversight processes, but let's face 
it, NEPA, CEQA, ESA, they were about 30, 40 years ago. Other 
things have changed. These regulations have not.
    And I have been doing environmental documents for 30 years, 
and I just cannot seem to get them done fast enough to get some 
of these major infrastructure projects moving forward. 
Everything else is static except for the environment that is 
moving forward. That has to change.
    Mr. Tipton. So what you are pointing out, clarify it for me 
if I am inaccurate on this. We have a regulatory process that 
was established for the 20th century, maybe earlier on in the 
20th century. We have now moved into the 21st century.
    Mr. Shibatani. Correct.
    Mr. Tipton. And we have new processes, new technologies 
which enable us to do it more efficiently and still be able to 
respect the environmental concerns which we all share, and be 
able to address Mr. Barcellos' point that rather than taking 20 
years to be able to develop a project, we could actually do it 
in a much more timely fashion just with cleaning up that 
regulatory process.
    Mr. Shibatani. You are absolutely correct, Congressman, and 
the one point I would quickly add here is that the shelf life 
for a lot of environmental documents is very, very short. The 
private sector develops methodologies and metrics very quickly, 
and so by the time I bring a project for certification, it 
could be 10, 15 years old.
    The easiest way to oppose that project is just to make the 
claim that the best scientific information is no longer valid. 
Ten years has gone by. That is a legitimate concern. We have to 
re-circle and startup from the beginning again, and we never 
get to that end point.
    Mr. Tipton. So it is time for the regulatory process to 
come out of the past, join us in the future, and to be able to 
build for a more prosperous country; is that right?
    Mr. Shibatani. At least stay on the same pace of change as 
the environment. The environment is changing. Climate change is 
pushing it a certain way. The regulatory environment has to 
stay in pace with that.
    Mr. Tipton. Right. Thank you so much.
    Mr. Shibatani. Thank you.
    Mr. McClintock. Thank you.
    Mr. Cardenas.
    Mr. Cardenas. Thank you very much.
    I would like to ask this question if either one of you can 
point out a project that you are aware of where the Federal 
Government actually participated in the financing and/or 
bringing dollar resources to that project. I am from the State 
of California. It seems like most of the recent projects in 
California have been paid for by local State bonds and other 
financing mechanisms, not necessarily Federal.
    Can either one of you or each one of you think of a project 
that actually is within your realm of what you do that actually 
had Federal funds?
    Ms. Ziemer. I will kick it off just with the Federal 
funding through both Bureau of Reclamation's Water Smart Grants 
as well as Farm Bill Equip Programs have been very important 
for the investment in upgrading infrastructure for irrigation 
districts and water users that leads to salvaged water for 
multiple benefits: irrigation, environmental flows, as well as 
municipalities. So certainly that has been very important.
    Mr. Cardenas. And how about new projects, as in new 
facilities? It seems like you just pointed out that the Federal 
Government seems to be involved as far as you are aware in 
helping with mitigations, helping with improvements, et cetera, 
but how about specific new projects?
    Ms. Ziemer. Well, other than the planning money that came 
through Bureau of Reclamation's Basin Study Program to help 
identify the Yakima storage, I am not aware of other new 
storage.
    Mr. Cardenas. And then that would have been a small 
percentage or a large percentage of the overall cost of that 
project?
    Mr. Sandison. In the case of Yakima, we were the first 
basin study grant recipient in the country, as I understand it.
    Mr. Cardenas. How long ago roughly? How long ago was that?
    Mr. Sandison. Oh, that was 2 years ago, I believe.
    Mr. Cardenas. When you received that.
    Mr. Sandison. So the Bureau of Reclamation has been a cost 
share partner with us in Yakima actually since 2003, but when 
we began this process of the integrated planning in 2009, we 
had been roughly a 50-50 cost share partner, and the total 
amount of money expended to this point is probably in the $12 
million range in terms of getting us to a plan that is through 
a programmatic environmental impact statement, and so on, and 
have a planning report submitted to OMB.
    In the Odessa Project, which is a groundwater replacement 
project in the Federal Columbia Basin Project, we have been, 
again, a cost share partner since 2005 with Bureau of 
Reclamation, and again, about $6 million had been invested on 
both sides on that, and we recently completed the environmental 
impact statement, and the Federal record decision was entered 
into.
    We are about to issue the water right, the secondary use 
permit to Bureau of Reclamation which would allow for that 
project to proceed and to replace groundwater, on the ground 
replacement of groundwater in what we call the Odessa area. So 
in both cases we have been active cost share partners with 
Bureau of Reclamation.
    Mr. Cardenas. However, when it comes to establishing, say, 
a surface water storage project, say, a new dam or something 
like that, you mentioned $12 million, which is nice to see that 
there is participation there from the Federal level. Yet at the 
same time what is a typical cost of a brand new facility if 
something were to be cited and it would actually get past all 
of the environmental requirements and then actually built?
    Is it in the tens of millions or hundreds of millions or 
does it possibly tip across a billion dollars?
    Mr. Sandison. It is the latter. I mean, just for example, 
the projects we are looking at in the Yakima Integrated Plan, 
the most expensive project is 160,000 acre-foot off-channel 
reservoir called Wymer. I mentioned it earlier. The cost 
estimate on Wymer is $1.1 billion, with a B, and we have a 
couple of other projects that are a little bit smaller scale 
but are in the $280 million to $600 million range.
    Mr. Cardenas. Is there any anticipation that in near future 
projects that the Federal Government would be participating in 
any semblance above $100 million or more per project, or is it 
just mainly grants that help percolate the process of getting 
it off the ground?
    Mr. Sandison. Again, in the case of the Yakima Integrated 
Plan, it is our expectation that there would be a Federal 
partnership, a cost partnership, funding partnership on the 
larger projects, which several of them would be over a $100 
million investment.
    Mr. Cardenas. If you will allow me time for one more 
question, Mr. Chairman.
    Mr. McClintock. If it is a yes or no.
    Mr. Cardenas. Never mind. Thank you.
    [Laughter.]
    Mr. McClintock. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    This is always a very difficult issue, but I think we have 
to acknowledge some positive strides have been made in 
California. They are doing amazing things with conservation and 
recycling in urban areas as well as in agricultural irrigation 
and recycling Ag water and using it over and over again as 
well.
    But we keep coming back to the needs of a growing 
population and a further shift and reallocation of existing 
water that was built for other purposes at the time to 
environmental uses. Millions of acre-feet have been shifted, 
and when you talk about strategies and visions to even increase 
more flows during the time of year, and speaking mostly of 
California here again, but during the time of year where it 
cannot be captured for Ag use or other use, strictly flows for 
fish purposes as deemed by somebody, including ideas of 
shifting so much of the flows to that. You would have 
effectively a dead pool behind some of the dams, basically a 
drop of water left behind that nobody can access.
    So there are some pretty radical ideas out there on the 
shifting of water use and supply that really put a chill on 
current uses, Ag uses. So it exacerbates the need even more for 
all types of water supply creation, more conservation, more 
recycling, yes, more looking at desalination where you had that 
unlimited water supply along the coast. Technology is getting 
better to more cheaply do desalination, where urban use on a 
one acre-foot or half acre-foot per household use is 
affordable. It will never be affordable inland for Ag use on 
desalination, but it can be used in those places.
    So what I am getting at is that the need for more supply 
inland for Ag use for those other long-term uses is greater, 
but we hear thoughts in the committee that, well, the money is 
not there. The desire is not there.
    And, Mr. Shibatani, you talked about it is there, but when 
you add a 10 to 15 or 20-year buffer of regulatory tangles and 
permit tangles and lawsuits and all of that, of course the 
money is scared away by that.
    So how do you see us getting out of this? What do you see 
is going to be the solution here to actually increase the 
supply?
    We are not going to do it all through conservation. We have 
taken great strides, but do you think conservation totally is 
the answer when we are talking about these other allocations 
and shifting of water supplies that are currently happening 
away from Ag and urban use toward the environment?
    How are we going to do this?
    Mr. Shibatani. Well, I think, Congressman, as my colleagues 
have eloquently espoused, any one particular element in a water 
supply portfolio cannot be the solving answer. So water 
conservation, while important, certainly it has progressed 
considerably over the last several decades. For the amount of 
demands and concerns that we have facing us in the future and 
the importance of having in-stream flows provide benefit, 
thermal benefit, water quality benefits, protection against sea 
level rise, we need to have additional assets in those storage 
reservoirs. It provides a flood control benefit. It provides a 
supply benefit. It provides an in-stream environmental 
ecosystem functionality benefit.
    But most importantly, what it does is that it takes 
California's inherent hydrology, which is a 4-month based; it 
puts it into storage and allows the resource managers then to 
use their professional discretion rather than have that water 
leave and run out to the Pacific Ocean, to then say, ``What do 
we want to use or how do we want to allocate that as experts in 
the system to then mete out the appropriate allocations?''
    So my contention has always been, and I think the Chairman 
mentioned this at the beginning, California has never been a 
water short State. It has always been a State challenged by 
moving water from Point A to Point B. If we have additional 
supplies up in the source areas where that precipitation is 
occurring and shifting under current climatic forcings, then it 
is incumbent upon us.
    Mr. LaMalfa. Let me touch on that. If there is a climate 
force that is changing, then is it not even greater that during 
that narrow window of time that we capture a greater amount of 
that water that is no longer snow pack, if indeed we do play 
that climate change game?
    Mr. Shibatani. Well, that is true. That is true. If you 
look at the hydrograph of California, we have always managed 
for that spring freshet. That spring peak is dropping and 
moving earlier to the season. So we are going to have more 
water in our watersheds earlier in the season, and that would 
just leave, unless we captured it.
    So climate change----
    Mr. LaMalfa. That, and we would have certainty of the 
people that would invest in this that they can actually get a 
project done. Otherwise they are going to stay away with their 
money.
    Mr. Shibatani. Correct. So when I talk to private investors 
and say that we can expand our hydrogenating period time, they 
start looking at climate change. It becomes a very enticing 
character that you can throw in front of a private equity 
investor to say that we can extend our hydropower generation 
period by 2 or 3 months.
    And to get back to your question, private investment or 
private investors in the equity market, they know exactly 
California's potential for hydropower, and they are just 
waiting for us to do something on the regulatory environment to 
make it a little more efficient, a little more judicious in 
meeting its responsibilities to come up with some kind of 
genuine expediency to get these longstanding infrastructure 
projects built that, quite frankly, are decades overdue to 
actually reinvest private sector money into this State.
    Mr. LaMalfa. They know the potential. I have a book that 
thick from 1957 of all the potential projects that could have 
been done if the money and the willingness would be there.
    Thank you. I yield back.
    Mr. McClintock. Thank you.
    Wyoming has joined us. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    What happens in California is important to my State because 
we are at the headwaters, and a lot of the water in the Green 
River flows into the Colorado and ends up in your neck of the 
woods, and of course, what happens below Lake Powell, the lower 
Colorado River management and the upper Colorado River 
management are supposed to be separate.
    But we also recognize that as the demands of the larger 
population areas downstream begin to demand more water, your 
ability to store water in those higher elevation storage areas 
protects our ability to use our own water in the upper 
Colorado.
    So what you do with regard to creating new storage, 
especially in your high areas, is very much important to us as 
we try to protect our own water uses for upper Colorado River 
Basin States.
    Question, Mr. Barcellos. If you listen to some of the 
environmental groups, you would get the notion that 
conservation and efficiency are the answers to water shortages, 
but could you talk a little more about what the Ag community is 
doing on the conservation front and what role conservation can 
play in the future in addition to this other conversation we 
are having about storage?
    Mr. Barcellos. Well, conservation has allowed the expansion 
of many of the communities because the agriculture has 
conserved the water that made it available for communities to 
expand their own water usage from groundwater pumping.
    We have expanded some acreages and crops, feeding many, 
many more people in the world and creating a large agricultural 
economy, $12 billion in California on an annual basis. And the 
fact that we are somewhat at the limit of conservation 
practices, they have pretty well been developed with drip 
tapes, with fan jets, and all of our irrigation practices.
    We really have to work now on finding additional water 
supplies to recharge groundwater for the communities that are 
not alongside of a river or anywhere in that neck of the woods 
because our groundwater recharge is what supplies all of the 
communities in the area. So we have to work partnerships with 
the communities and agriculture to manage those supplies.
    But we have come a long way in water management.
    Mrs. Lummis. Thank you.
    Mr. Sandison, question for you. What would be the result of 
conservation alone being used on a broad scale without the 
construction of new surface storage?
    Mr. Sandison. Well, again, specific to my testimony which 
focused on the Yakima River Basin, in that basic the benefits 
that would derive from conservation projects would, again, we 
stream reach benefits so that you are actually improving flows 
for a segment of stream.
    However, because of the nature of the conservation savings, 
which is basically capturing leakage, the water is diverted, 
put into a canal. The water leaks out. That water gets back to 
the river now, and so what the conservation projects do is give 
you a stream reach benefit between the point of diversion and 
the point at which the water would have returned under natural 
conditions.
    So, again, it is limited to stream reach benefits in the 
Yakima, what will not supplant the water that would be provided 
through storage or provide water for out-of-stream needs.
    Mrs. Lummis. So it is a fair statement for me to say that 
storage is needed in order to add more total water capacity to 
conveyances.
    Mr. Sandison. That is our position, yes.
    Mrs. Lummis. A question for Mr. Barcellos.
    How would you resolve the issue of addressing hurdles to 
moving forward on new storage?
    Mr. Barcellos. Well, I think we have heard today that 
financing is a large part of it, but we have communicated with 
larger communities that are willing and able to finance certain 
projects that would allow conjunctive use through groundwater 
banking, water transfer, and having additional storage would 
facilitate that.
    So there are financing issues there that we have discussed 
and could be addressed, but you also have, as was stated 
earlier, a lot of money does not flow until you have the 
permitting processes done, and those are quite difficult. So we 
need to find a way to make the permitting process a little more 
practical.
    Who do you go to? One group starts in one place with 
environmental things. You have the Clean Water Act that 
somebody has to go get permits and carry things over there. So 
if we could centralize one place, it could actually give 
permits based on need and overcome the threat of litigation, 
then that would go a long way to solving that issue.
    Mrs. Lummis. I see that my time has expired, Mr. Chairman. 
Thank you very much.
    Mr. McClintock. Thank you very much.
    We are going to go to a quick lightning round here just to 
pick up a couple of final details.
    Mr. Barcellos, you never had an adequate opportunity to 
respond to Mr. Huffman's insinuation that you were throwing out 
faulty numbers when it came to the west side of the San Joaquin 
Valley. Is it not true that Westlands numbers show an initial 
allocation of zero to 15 percent under normal conditions?
    Mr. Barcellos. Yes, it is, and actually in my written 
testimony, that is considerably expanded on some of the 
projects that I did not have time to discuss in oral.
    Mr. McClintock. Great.
    Mr. Barcellos. So the written testimony is 12 pages. It is 
pretty complete.
    Mr. McClintock. Thank you, and that will be a part of the 
record.
    The rhetorical question was raised, well, what dams are 
being stalled by environmental objections. Well, I can tell you 
in my district alone we are running into a fusillade of 
environmental opposition to a simple proposal by Merced to 
raise the new Exchequer Dam at Lake McClure by a mere 10 feet, 
which it was designed to be raised by.
    So that will give you some idea of the problems that we are 
facing.
    Mr. Shibatani, you pointed out the difference between 
allocated and non-allocated water. Water might be allocated 
between March and November, but not allocated between December 
and February, basically.
    Mr. Shibatani. Correct.
    Mr. McClintock. Is that not the time when we watch the 
Sacramento River swollen with enormous flood runoff?
    Mr. Shibatani. Absolutely.
    Mr. McClintock. So that is what you are talking about 
storing, is it not?
    Mr. Shibatani. That is the uncaptured amount that we want 
to store.
    Mr. McClintock. And in order to store all of that 
floodwater, we have to have a place to put it.
    Mr. Shibatani. Absolutely.
    Mr. McClintock. And that is the whole point.
    If the climate continues to warm, as it has been on and off 
since the last Ice Age, snow packs will not be holding water as 
long. Does that not also argue for more water storage?
    Mr. Shibatani. Absolutely. During that time of year, too, 
Mr. Chairman.
    Mr. McClintock. Now, we covered the fact there are plenty 
of geologically adequate sites, particularly in the high 
elevations. We have covered the fact that these projects should 
be, can be, and if they are properly thought out are self-
financing, in fact, can produce revenues pretty much in 
perpetuity.
    And you have covered the point that one of the greatest 
drawbacks to these projects is fear of regulatory delays that 
simply make them no longer viable. What can you recommend to us 
as changes that need to be made at the Federal level to bring 
about this new era of water storage?
    Mr. Shibatani. I think there are two facets there, Mr. 
Chairman. One facet I think has to do with the actual 
responsibilities and the accountabilities with those permitting 
agencies that have to deal with the applications that come 
before them. Now, they will come back and say that we are 
resource constrained. We do not have enough staff. We have a 
back log.
    I would almost recommend, and I am going to throw this out 
there just because it is the kind of stuff that I do, maybe 
there is a situation where we can develop a new statute call 
the Responsibility and Accountability Act of 2014 that compels 
public trust resource agencies, compelled with the 
responsibility of adjudicating on private proponent 
applications to actually expedite those processes and put some 
kind of accountability on timelines so that all parties, 
applicants and the permitting agencies, can actually meet.
    If we have that kind of assurance, I could go to the 
private sector market and say at least in law, there is this 
time period and some closure date. It gives them some assurance 
that we have a target to reach. Without that, it is an open-
ended checkbook, and I cannot--not me personally--but we cannot 
necessarily compel that kind of interest for private sector 
investment.
    Mr. McClintock. In fact, I am told if there was just some 
certainty in outcome that private sector financing for these 
projects would be abundant and there would be no need for 
putting taxpayers at risk on any of this. The risk would be 
borne by private investors.
    Mr. Shibatani. That is correct, and that is one of the big 
issues about why certain groups that I am associated with, Mr. 
Chairman, were moving away from State and Federal fundings for 
these major infrastructure projects. That is not going to get 
done.
    Private sector is chomping at the bit with all the pension 
funds, waiting to reinvest in what they feel are very important 
natural resource, public trust, needed infrastructure 
improvement projects for the Nation. So the money is available.
    Mr. McClintock. So it is not financing. It is not suitable 
sites. It is not engineering. It is government regulatory----
    Mr. Shibatani. Uncertainty.
    Mr. McClintock [continuing]. Delays and uncertainty that 
are the root of our problem.
    I would be very interested in working with you on such 
legislation.
    Mr. Sandison, one quick question. The concerns over 
conveyance were raised, particularly the loss of water through 
seepage. For example, you mentioned in your paper that might 
conserve water short range, but downstream it has no effect.
    Would you very quickly?
    Mr. Sandison. Yes, Mr. Chairman. The savings you capture 
are in the reach between the point of diversion and where that 
leakage would naturally return, and if you reduce the diversion 
accordingly, you increase flow in that reach, but if you try to 
take that same saved water and move it to another out-of-stream 
use below that point of return, you would have a permanent loss 
of low in the river. And if you compounded that by doing it 
over and over again, you would simply de-water the river.
    Mr. McClintock. Great. Thank you.
    Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Sandison, you mentioned in your testimony that 
conservation will not solve the problems in the Yakima Basin, 
but do you agree that conservation is key to the integrated 
plan, which includes storage?
    And would you agree that conservation might work for some 
areas but not as well for others?
    Mr. Sandison. Yes. Congresswoman, I do not want to over-
generalize here. So I keep my remarks kind of limited to the 
Yakima Basin where what I have described as being the case, it 
is a river system with old irrigation systems. It may be unique 
to the area.
    Yes, the conservation has been under the Yakima River Basin 
Water Enhancement Project, Phase 2, an ongoing effort. We have 
saved about 72,000 acre-feet of water, conserved about 72,000 
acre-feet of water thus far under Phase 2. The integrated plan 
calls for another 170,000 acre-feet of storage.
    Mrs. Napolitano. So what do you need to move forward?
    Mr. Sandison. Well, funding for those individual projects. 
The YRBWEP Phase 2 projects in the past have been a combination 
of Federal, State, and irrigation district funding. We are 
looking at this new 170,000 acres to see how the funding could 
be constructed for that.
    Mrs. Napolitano. Do you see an impediment then in any of 
the environmental issues or regs. or anything of that nature?
    Mr. Sandison. As we move forward with conservation 
projects, we do not typically have significant regulatory 
hurdles to overcome in that regard.
    Napolitano. So that would not be the impediment?
    Mr. Sandison. No, not for the conservation project.
    Mrs. Napolitano. Absent the funding.
    Mr. Sandison. Yes, I mean, absent funding, right. It is not 
an impediment.
    Mrs. Napolitano. I just looked at and I introduced into the 
record, but I did not indicate what it really did, but 
hydrologist Chris Peterson recently in Modesto made a statement 
that I found rather interesting, that it takes $110 per year 
per acre-foot to underground store; 1,000 acre-feet for above 
ground reservoirs, and 2,000--those are some old figures--for 
desalination.
    So, you kind of have to look at all the other types of 
water conservation and water storage, et cetera, and everything 
else.
    Ms. Ziemer, the President in August signed the Small 
Conduit Hydropower Act, and as stated before, and I do agree, 
small scale projects have cumulative capacity of the Glen 
Canyon Dam when constructed. Do you think large scale 
hydropower is the only solution?
    And what role do these small projects play and what is 
their advantage?
    Ms. Ziemer. In a State like mine, Congressman Napolitano, 
the small and rural States like Montana, small scale hydro has 
a huge potential to address energy demand because part of the 
problem with rural needs and rural energy demand is the 
conveyance or getting transmission lines out to these rural 
locations.
    With small in-conduit hydro we can produce the power in the 
place where it is needed in order to pump water and to move 
irrigation works without investing in the long conveyance in 
transmission lines, and it is really actually a genius 
solution, and I have to add Trout Unlimited was very proud to 
work with Representative Tipton on that bill.
    Mrs. Napolitano. Great. I was just checking some figures 
with staff, and since 1992, the Bureau of Reclamation's title 
16 has produced almost 800,000 feet of water, wet water.
    The Diamond Valley Lake, Metropolitan owned and produced 
started in 1995 and finished in 2003 with their own money. It 
took 8 years, and it will store almost the same amount of 
water.
    So something that we need to start looking at is the 
comparison of saving and being able to conserve, educate our 
folks, and I commend Mr. Barcellos for being able to do a lot 
more of the conservation both in farming and in the raising of 
cattle and other dairy farms because those are important things 
for California and for the rest of the Nation for that matter.
    But I think we need to be able to work together and find 
solutions that are going to be, as my colleague was stating, 
the most effective and cost effective for the people, and being 
able to work together to make the issues more clear to those or 
clearer to those that have the ability to take into 
consideration and to come up with legislation to fix problems 
or help communities thrive.
    So with that I yield back, and thank you, Mr. Chair.
    Mr. McClintock. Thank you.
    And Mr. LaMalfa to close.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    First, I love this term of art, ``wet water.'' You know, is 
there dry water or powdered water? Just add water?
    Mrs. Napolitano. Would the gentleman yield?
    Mr. LaMalfa. Sure.
    Mrs. Napolitano. I find that paper water and there are 
allocations of percentages of water. It is called paper water. 
So in other words, if you have 50 percent of the water 
allocation, on paper, when there is not a full 100 percent 
water, that is wet water.
    Mr. LaMalfa. I was just having a little fun, ma'am.
    Mrs. Napolitano. OK. Well, I just want it for the record. 
Thank you.
    Mr. LaMalfa. OK. Yes. Well, it is good. Now we have that 
clarified.
    Mr. Barcellos, now we were talking earlier about the 
process of bringing something from idea to an actual project, 
and the framework, if you can call it one, for permitting. So 
could you walk through a little more specifically on what that 
is really looking like these days?
    How many different agencies are involved? Do they talk to 
each other? I mean just for the record out loud so people can 
hear. What agency has to talk to the other? Are you the middle 
man or does anybody even have a chance to communicate?
    Because this has all been done in many, many places around 
this country with building projects in the past, and there 
really is not anything that much newer under the sun, other 
than a location where you have the usual concerns that a dam is 
going to cause inundation of an area behind the dam, and then 
you start getting into cost-benefit ratios.
    Why is it so tough? Why is it so tough to get people to 
communicate with each other?
    We talked a little bit about having a template. Could you 
just elaborate a little bit what that looks like for people who 
might be watching or for the record on how frustrating that is?
    Mr. Barcellos. Well, my expertise, as I said earlier, is 
not in the technical aspect. I am a board member and a farmer 
first.
    But one example, when we were working with the seismic 
remediation project on Success Dam, that is a Corps of 
Engineers managed dam, and any time we had water elevations 
coming up, we had a flood year sometime back, and the process 
of getting permits even just to sandbag to raise the level 
because of an elderberry bush that ultimately they spent tens 
of thousands of dollars sandbagging around it to raise the 
level. Ultimately the sandbags killed it because it did not let 
the water free flow by, and it got too hot and that just took 
care of that problem.
    There were others they were unable to protect that survived 
because the cooling water as it was flowing by once the water 
level receded, it was fine. However----
    Mr. LaMalfa. Did a study decide that the sandbags would 
help the one and not hurt the other?
    Mr. Barcellos. I am sure somebody did or somebody should, 
but the fact is as we go forward--we have a little hydro plant 
on our dam also--the regulations that you have to go through to 
keep that going. If you want to build a new project, where do 
you start? Do you start with ESA and you start looking at 
endangered species? And then you are going to inundate an area 
with water. So then all of a sudden now you have seepage so you 
have to work with the Clean Water Act.
    I do not know all of the different areas you would have to 
go. So it would be nice to have a clearinghouse of one place.
    Mr. LaMalfa. One-stop shopping though can lock them in a 
room and make them decide what it all is, and then you apply, 
right?
    Mr. Barcellos. Yes, because what happens is one gets a 
little bit of permission and says, ``Before we can go to the 
next step, you have to get clearance from the other one, and 
then when you get that come back and talk to us.''
    Mr. LaMalfa. And pretty much all of these boil down to 
environmental issues, don't they?
    Mr. Barcellos. They are all directly related.
    Mr. LaMalfa. Yes, even though we hear earlier it is an 
environment and it is investors. I guess it is the chicken or 
the egg because the investors are ready to go, but 10 or 15 
years' worth of permits do not seem to allow it.
    Down in the valley there, too, when we talk about 
allocations where there is the threat or it might be 0 percent 
for certain districts, certain areas in the Central Valley, and 
I guess there is a problem that we accept that anywhere from 20 
to 30 to 40 or maybe 50 is great, where in the past there were 
allocations that at one point may have been 100.
    And so do we just accept that these lowered standards, 
these lower numbers are what it is going to be in perpetuity, 
or do we do something about it with adding to the storage, 
adding the supplies as environmental concerns become a greater 
part of our reallocation?
    Mr. Barcellos. We cannot continue on the way we are. The 
Central Valley is in a groundwater overdraft. So any water that 
has passed by that has gone to the ocean unabated and has not 
served a reclamation use for trying to bring back fish, it has 
not benefited the Delta because it flowed through too quickly, 
because it was all flood releases.
    There are factors that come into play that in those wet 
years if we could capture water, we are not going to capture 
maximum every year. Anybody who is a realist knows that. But if 
we could catch them on those really wet years and have that 
water to manage in conjunctive use for groundwater recharge, 
groundwater banking, utilizing it for irrigation for farms, and 
as I stated earlier, sometimes too much water conservation is 
what is impacting the groundwater on communities that do not 
have access to anything other than groundwater. So we have to 
keep them in mind, too, and that is something that our district 
works very hard at, is groundwater recharge to maintain water 
available for those communities also.
    Mr. LaMalfa. As do we in the North with a lot of acres of 
rice, et cetera.
    Thank you for your testimony. I yield back.
    Mr. McClintock. Thank you.
    I want to thank all of you for your testimony, for your 
patience today and for your expert guidance on this important 
issue.
    The record will be held open for 10 days. So you may get 
additional questions as a result of this hearing, and the 
record will be kept open to receive your responses.
    Again, many thanks to all of you. If there is no further 
business and without objection, the subcommittee stands 
adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
